<html>
<title> - FINANCIAL SERVICES AND GENERAL GOVERNMENT APPROPRIATIONS FOR FISCAL YEAR 2009</title>
<body><pre>[Senate Hearing 110-]
[From the U.S. Government Publishing Office]



 
  FINANCIAL SERVICES AND GENERAL GOVERNMENT APPROPRIATIONS FOR FISCAL 
                               YEAR 2009

                              ----------                              


                       WEDNESDAY, APRIL 30, 2008

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 3:02 p.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Richard J. Durbin (chairman) 
presiding.
    Present: Senators Durbin and Brownback.

                   CONSUMER PRODUCT SAFETY COMMISSION

STATEMENTS OF:
        NANCY A. NORD, ACTING CHAIRMAN
        THOMAS H. MOORE, COMMISSIONER

             OPENING STATEMENT OF SENATOR RICHARD J. DURBIN

    Senator Durbin. Good afternoon. I am pleased to welcome you 
to this hearing today before the Financial Services and General 
Government Appropriations Subcommittee.
    Today we will discuss the President's fiscal year 2009 
budget request for the Consumer Product Safety Commission 
(CSPC). Testifying before us will be Acting Chairman Nancy Nord 
and Commissioner Thomas Moore.

                              THEN AND NOW

    Last year, thanks to investigative reporting by the Chicago 
Tribune, which won a Pulitzer Prize for its work, I became 
concerned about toy safety issues. With the spotlight shining 
on some deadly toys, America became much more aware of the 
dangers of toys on store shelves, often ones coming from China.
    At this time last year, we were reviewing the budget of an 
agency that had been neglected and underfunded for years. We 
acted together on a bipartisan basis last year to boost funding 
from a level of $63 million to $80 million, a dramatic increase 
by today's budget standards. The House and Senate both passed 
reauthorization bills to improve CPSC's abilities to protect 
the public.
    So now, with the 28 percent increase in funding last year 
and an expected final reauthorization that will, if the Senate 
prevails, give the CPSC new tools, we will be able to prevent 
dangerous products from reaching stores, ensure faster recalls, 
and allow families access to information on existing safety 
complaints. I think the Consumer Product Safety Commission has 
the potential to become an exemplary watchdog agency.
    The Commission has gone from a high of 978 full-time 
employees in 1980 to a low of 380 employees in January of this 
year. Now that it is turning around, because CPSC has the 
funding we provided to replace the key staff it has lost over 
the years, I hope the Commission will swiftly hire all the 
needed technical experts and investigators to get the agency 
back to better fulfill its mission.
    We discussed last year in detail the dilapidated laboratory 
that CPSC uses to test toys. I understand that Bob, one of the 
toy testers, has since retired. Bob became a very famous figure 
in America, as we talked about his workbench and his testing 
laboratory.
    But soon CPSC will move to a new and improved testing 
laboratory. We provided funding last year to enable that 
timetable to be accelerated, and with funds requested in fiscal 
year 2009, the Commission will be able to move into the space a 
year earlier than expected.

                  FISCAL YEAR 2009 PRESIDENT'S BUDGET

    While good things are being done with funding provided last 
year, unfortunately, the President did not join in the cheer. 
The President froze funding for this agency for the next fiscal 
year at the $80 million level. So while the agency is hiring 
new staff, the fiscal year 2009 budget proposal by the 
President would just maintain the staff and not continue to 
build the professional staff that is needed to protect 
consumers across America. I do not agree with the President. 
There has been a dramatic upsurge in imports into the United 
States, a dramatic increase in products that have to be 
reviewed by this Commission to make sure that American families 
are safe.

             MISINFORMED APPROACHES TO CONSUMER PROTECTION

    At this point, I hope that we can move forward. I hope that 
we can understand that some of the challenges are very obvious. 
A CPSC engineer was asked to design a new study of the 
mechanics and stability of all-terrain vehicles (ATVs). He 
proposed a cursory review of the latest ATV's on a budget of 
about $40,000. He was turned down because it cost too much, he 
was told. How can $40,000 be too much to study a vehicle that 
literally is responsible for the deaths of hundreds of people 
and sends hundreds of thousands to emergency rooms each year? 
It is clearly a case of penny-wise and pound-foolish.
    In 2001, CPSC issued an administrative complaint, a first 
step in litigation leading to a recall, against Daisy 
Manufacturing Company about their Powerline Airguns. Airgun's 
BBs were getting stuck in the gun, so children thought the guns 
were empty and began aiming and shooting at each other. Due to 
the high velocity BBs, this resulted in deaths and serious 
injuries among kids. Daisy alleged there was a misuse of the 
product and an education campaign would solve the problem.
    The Commission alleged a defect, which caused the BB to 
lodge in the gun so that an administrative complaint was 
issued, but it was then dismissed by the CPSC in 2003 under a 
new administration. One of the factors leading to the 
settlement action was that Daisy Company could have gone out of 
business if there had been a recall.
    Mr. Moore, at the time, your statement took issue with that 
settlement action, and I quote. ``The bottom line is that we 
are not the business protection agency. We are the Consumer 
Product Safety Commission. Our responsibility is to protect the 
public from dangerous consumer products. If we lose sight of 
that, we will get entangled in endless discussions of company 
finances while consumers are being put at risk of death or 
serious injury.''
    These are clearly issues and many others that we will have 
to consider, and we will talk about them as we get into this 
hearing. But at this point, let me turn to my ranking member, 
Senator Brownback of Kansas.

                   STATEMENT OF SENATOR SAM BROWNBACK

    Senator Brownback. Thank you, Mr. Chairman.
    The hearing we did last year on the Consumer Product Safety 
Commission was an excellent hearing. I thought it was a ground-
breaking hearing, and I am pleased to see progress is being 
made.
    I would like to thank Acting Chairman Nord and Commissioner 
Moore. I will begin by commending you for the steps you have 
taken to improve the agency and the work and the safety of 
imported consumer products since our September 12, 2007 
hearing. I understand that you used the additional resources we 
appropriated to improve your import surveillance activities, 
modernize your product testing, and hire additional product 
safety inspectors. It is unfortunate that such advances were 
not made until after all the toy recalls, bad press, and 
congressional hearings.
    We discussed the issue of imported products from China at 
great length in our earlier hearing, so I will be briefer on 
that today. But clearly, China is our biggest regulatory 
challenge since 70 percent of all defective products are coming 
from that country--70 percent. We must continue to focus our 
efforts on stopping dangerous and even lethal products from 
reaching American consumers. This is where the problem is and 
this is where our focus, I believe, should be. It is hoeing 
where the weeds are.
    I am glad to hear the continuing dialogue with the Chinese 
and the enhanced ways your agency is communicating with them, 
but I am concerned that dialogue just is not enough. The 
memorandum of understanding (MOU) that you have signed with the 
Chinese must be honored and you must verify--verify--that the 
Chinese are holding up their end of the bargain. I would 
recommend that you hold annual, rather than biennial, product 
safety summits with the Chinese. I still believe that we cannot 
merely trust China to do what is right.
    Certainly regarding product safety, they have given us 
every reason not to trust them. In fact, just yesterday a Food 
and Drug Administration (FDA) official testified before a House 
subcommittee that FDA's working hypothesis is that the 
contamination of heparin was intentional. Although FDA has not 
proven this yet, it speaks volumes about the grave concerns we 
must have about all products coming from China.
    I hope that during today's hearing you will be able to 
identify specific ways you intend to hold China accountable. 
Again, this is where the problem is and this is where our focus 
should be. It is a totalitarian system. It does not have a free 
press. It has graft and corruption that operate within the 
political system. I think by looking at the exterior factors 
you would expect a series of problems to probably arise.
    So Ms. Nord and Mr. Moore, I thank you for your commitment 
to protect America's consumers. I look forward to hearing your 
detailed testimony and what we can do to particularly address 
the issue of the products that we are seeing coming in from 
China.
    Thank you, Mr. Chairman.
    Senator Durbin. Thanks, Senator Brownback.
    I now invite testimony from Chairman Nord and Commissioner 
Moore. Please proceed.
    Ms. Nord. Thank you, Mr. Chairman, Senator Brownback.
    A lot has happened at the CPSC since the last time I 
appeared before you, thanks in large measure to the leadership 
of this subcommittee and to you personally, Chairman Durbin and 
Senator Brownback.
    The CPSC received a nearly 28 percent increase in our 
fiscal year 2008 appropriation, and I can report to you that we 
are putting these new funds to very good use this year and are 
building a foundation for further growth in 2009.
    The consumer product landscape is changing with 
globalization and a surge in imported products, more 
technologically complex products, and a dramatic increase in 
Internet sales. As this landscape changes, so must we.
    This afternoon I want to highlight changes we are making 
with the increase in our 2008 funding and discuss our 2009 
budget proposals which are built on this foundation.
    The first change is staffing. We started fiscal year 2008 
anticipating a staffing level for the year of around 400. 
Instead, for the first time in many years, the CPSC will end 
the fiscal year with more people on staff than at the beginning 
of the year. Our ambitious goal is to begin fiscal year 2009, 
this October, with the full complement of staff requested for 
the entire year, an increase of over 50 people since this past 
January.
    While we are staffing up throughout the agency, we are 
making a special effort to increase our compliance and field 
staff who are part of CPSC's new Import Surveillance Division, 
which is a centerpiece of our new import safety initiative. For 
the first time we will have a team of permanent full-time 
personnel at selected key ports, supported by a team of 
technicians, scientists, and lawyers at headquarters, with full 
access to Customs' technology that will give our team real-time 
information on consumer product shipments bound for the United 
States. When a suspect shipment warrants inspection, we will be 
using the newly acquired XRF technology to screen for violative 
products.
    The second change is in our laboratory. Our lab team tests 
products sent from our field staff to identify defects and 
violations, and they provide the scientific backbone to support 
our rulemakings such as the one we are pushing forward now on 
upholstered furniture. With more field inspectors and 
compliance officers, the work of the lab will grow 
significantly. As you know very well, the laboratory is housed 
in a substandard facility. The fiscal year 2008 funding you 
provided allowed us to begin the modernization a year earlier 
than we had anticipated, and our fiscal year 2009 budget 
request allows us to plan to move into a new modern laboratory 
by the end of 2009. It is anticipated that the new facility 
will increase our efficiency by accommodating not only our lab 
staff, but also other technical and scientific staff who work 
closely with them.
    The third change concerns our data management and 
information technology (IT). The CPSC receives an enormous 
amount of information, close to half a million individual 
product incident reports each year. And I have here a couple of 
samples of a 1-day's run of data of product reports from two 
different databases. Processing, investigating, and responding 
to this information is an enormously complex undertaking. Yet 
it is in this data that we find the clues that point to 
possible emerging hazards.
    Unfortunately, due to the age and limitations of our IT 
infrastructure, this data is entered in numerous systems that 
are not integrated with each other. These two databases which 
have consumer complaints and product incident reports are not 
integrated. They do not talk to each other. Thus, we have to 
rely on the keen eyes and the institutional memories of our 
experienced staff to pick up trends and patterns, an inadequate 
approach as the agency grows and as our more seasoned staff 
retires.
    Our IT improvement plan will connect these data systems to 
allow staff to more effectively identify patterns and flag 
hazards as they emerge. The recently launched early warning 
system, which initially is focusing on nursery products in the 
sleep environment, is a pilot program for this data integration 
project.
    Our fiscal year 2009 budget request proposes to build a 
more comprehensive plan on the foundation provided by the early 
warning system. We will keep the subcommittee informed of the 
progress of this work since we do anticipate that additional 
funding will be needed in fiscal year 2010 to bring the new 
system online.
    Before concluding, I would like to reference two 
legislative developments that will impact our funding needs.
    First, Congress passed the Virginia Graeme Baker Pool and 
Spa Safety Act after our budget plans were finalized this past 
December. That law directs us to undertake a number of new 
enforcement and education requirements and to administer a new 
grant program. We anticipate returning with an amendment to our 
budget request for additional funds.

                           PREPARED STATEMENT

    We also anticipate that the CPSC reauthorization bill will 
be finalized soon. In addition to giving us needed new 
authorities, it appears that the final bill will include many 
new mandates for the agency, including as many as 40 new 
rulemaking requirements. When it is enacted, we undoubtedly 
will need additional resources above our 2009 budget proposal. 
In this regard, I look forward to continuing to work with the 
members and staff to make sure that we have those resources 
that we need to continue to serve our most important 
stakeholder, the American consumer.
    Thank you.
    Senator Durbin. Thank you, Chairman Nord.
    [The statement follows:]
           Prepared Statement of the Honorable Nancy A. Nord
    Thank you for this opportunity to present to you the appropriation 
request for the U.S. Consumer Product Safety Commission (CPSC) for 
fiscal year 2009. As the Committee members know, the CPSC is a small, 
independent and bipartisan agency created by Congress. Our mission is 
to protect the public from unreasonable risks of injury and death 
associated with more than 15,000 types of consumer products.
    Last December, the appropriations committees significantly 
increased CPSC's fiscal year 2008 budget by over 27 percent above the 
previous year. I want to begin my testimony by thanking the Committee, 
and specifically the Chairman, for your strong support of our agency 
and our safety mission. The funds that you have provided are helping us 
lay the necessary groundwork for the agency's expanded initiatives that 
are presented in the agency's fiscal year 2009 budget request.
                    fiscal year 2009 budget request
    For fiscal year 2009, the CPSC is requesting $80 million to carry 
out our various safety missions for America's families. While the 
agency's final appropriation for fiscal year 2008 was also $80 million, 
there are significant expenditures in 2008 that do not recur in 2009. 
Therefore, an additional $11,800,000 is available in the agency's 2009 
budget request compared to the 2008 funding level. With these fiscal 
year 2008 and 2009 funds, the CPSC will be able to complete the 
modernization of our testing laboratory, begin to overhaul our 
information technology (IT) infrastructure, and hire more staff.
    The facilities, staff and IT systems provided by this funding will 
combine to create the foundation we need to begin to build the agency's 
newest safety programs, including the Early Warning System that I 
initiated last year to enhance our ability to identify emerging hazards 
and the Import Safety Initiative that will allow the agency, for the 
first time in its history, to have a full-time presence at the Nation's 
ports. These expenditures for laboratory facilities, workspace and IT 
infrastructure are critical capital investments that must be made now 
to accommodate current and expected future growth of the agency, 
especially in tandem with our projected staff increase.
               meeting the challenge of imported products
    Since the CPSC's inception in 1973, the agency's work has 
contributed substantially to the decline in the rate of deaths and 
injuries related to hazardous consumer products. Today, the American 
home environment has never been safer. However, the international 
marketplace is dynamic, and there is always more work to be done and 
new challenges to be met.
    Perhaps the greatest of these is the import safety challenge. Most 
of the consumer products that we use today are no longer manufactured 
in the United States. For example, over 85 percent of toys and 59 
percent of electrical products are manufactured in other countries, 
notably in China. The number of products imported into the United 
States showed a 200 percent increase from 1997 to 2006.
    The Commission has taken aggressive steps to meet this challenge, 
including ongoing dialogue and initiatives with the Chinese Government; 
working with the private sector, including Chinese manufacturers 
directly; and increased surveillance and enforcement activities at the 
borders and within the marketplace.
    To provide a comprehensive and coordinated effort to ensure greater 
import compliance with recognized American safety standards, the 
Commission in 2004 created the Office of International Programs. 
Through this Office we have established a formal relationship between 
the CPSC and the General Administration of Quality Supervision, 
Inspection and Quarantine (AQSIQ), our counterpart agency in China. 
Formal working groups and action plans with the Chinese Government were 
set up to focus on key product areas, and they continue to make 
progress on their immediate goals of developing strategies to address 
safety problems and to respond quickly to urgent product safety issues.
    Last autumn, the CPSC sponsored the U.S.-Sino Product Safety Summit 
where significant agreements were signed with AQSIQ to strengthen these 
working groups. China has pledged to increase pre-export inspections, 
improve compliance with mandatory and consensus standards, and crack 
down on repeat violators of U.S. safety standards. While we recognize 
that China is a huge country with thousands of manufacturing facilities 
and that implementation of these agreements cannot be accomplished 
overnight, we have begun to see positive results. The CPSC will 
continue to work with the Chinese to assure that they fully implement 
their commitments.
    The initial steps that the CPSC has taken to assure the safety of 
imported goods are an important beginning to our goal of maximizing 
Chinese industry compliance with U.S. product safety requirements. In 
this regard, it is essential to convey to them a full understanding of 
U.S. regulatory requirements. Summaries of provisions of nearly 300 
U.S. mandatory and consensus consumer product safety standards are now 
available in Chinese. We are posting timely information briefs on our 
website in Chinese, and our plans include links to full Chinese texts 
and audio-visual products. The agency is also participating in 
industry-specific safety seminars and retail and vendor training 
seminars on-site in China.
              building a new import surveillance division
    The CPSC is hiring new staff in the areas of hazard identification 
and reduction, as well as in compliance and field operations. CPSC's 
number of actual FTEs at the start of calendar year 2008 was under 390; 
our aggressive goal is to increase that number to 439 by October 1, 
2008--a 13 percent increase with more than 50 new employees. 
Additionally, increased staff training and performance initiatives will 
enhance retention of CPSC's experienced and skilled employees.
    These personnel will enable the agency to expand its monitoring, 
inspection and testing of products, and especially children's products, 
as part of our Import Safety Initiative. Our new Import Surveillance 
Division is designed to be the front line of defense working to prevent 
dangerous toys and other hazardous products from entering the country 
and reaching American consumers.
    These employees will be specialists trained specifically in import 
surveillance procedures and will work closely with other Government 
agencies and with CPSC's compliance officers, technical staff, 
attorneys, and laboratory personnel. CPSC's new port investigators will 
track cargo and, with Customs' officials, stop and inspect suspect 
shipments. High impact ports will be targeted and new measures of 
import compliance will be established to better assess progress.
                 modernizing cpsc's testing laboratory
    When our import surveillance and compliance officers find suspect 
products, those products are sent to our laboratory to determine if 
they violate standards or are defective. Therefore, our laboratory is 
an integral and critical part of our operation. As you know, and as 
your staff has witnessed first-hand, CPSC's testing laboratory needs to 
be modernized to create efficiencies and to better support CPSC's 
product safety work, including the new work generated by the Import 
Safety Initiative. As presently configured, the laboratory space is 
inefficient to say the least, though our staff there do an incredible 
job with the tools that they have at hand.
    Our new funding has allowed the agency in 2008 to begin to 
implement plans that not only address the needs of the laboratory but 
also anticipate critical and immediate workspace issues for a growing 
staff. The Commission has been able to move forward with site selection 
and will make a substantial payment to the General Services 
Administration of $8 million in fiscal year 2008 so that we can move 
into the new laboratory a year earlier than otherwise expected. An 
additional payment of $6 million is requested in CPSC's fiscal year 
2009 budget proposal to complete the laboratory project.
    By accelerating our laboratory modernization plan, we will provide 
not only a modern facility for our engineers and scientists to conduct 
their testing and investigations but also office space for an 
additional 70 employees to be relocated from CPSC's headquarters 
office. These employees will be those who work closely with the 
laboratory staff. This action will allow further efficiencies and 
improvements in office space at our headquarters site.
                   improving cpsc's it infrastructure
    Per the Committee's interest, the agency is also spending new 
funding on important improvements to our information technology (IT) 
infrastructure. The need for increased funding for IT has been a 
constant in CPSC's budget proposals over the years. Our IT systems have 
not been fully modernized since 1993 when the agency last relocated its 
headquarters. As directed by the Committee, CPSC's 2009 budget request 
includes a report on our information technology modernization 
requirements.
    Achieving the agency mission is dependent on our IT systems because 
our work requires electronic accessibility of information to maintain 
productivity. The increased emphasis on import safety demands greater 
reliance than ever before on integrating CPSC databases and accessing 
other agencies' databases, such as those of U.S. Customs and Border 
Protection, in a seamless fashion.
    With new funding in fiscal year 2008, the CPSC has permanently 
established a long-sought capital fund to replace aging and outdated IT 
equipment on a systematic basis and a fund to support development of 
more advanced electronic applications. Additionally, a one-time 
expenditure of $2.3 million is allowing the agency to replace its 
resource management information system which is so outmoded that vendor 
support is being withdrawn.
    Funding in fiscal year 2009 will continue this modernization effort 
and include the development of our IT improvement plan to convert our 
current data systems from a client-server environment to a web-based 
environment; full integration of the Document Management System; 
updating current, outdated database platforms to one, mainstream 
platform; and converting current, disparate data systems to one data 
system.
    These IT improvements are essential to the agency's Import Safety 
Initiative. Improved electronic data exchanges with Customs' databases 
in the future will enhance the Government's capabilities to identify, 
track and stop hazardous products from entering the United States. Our 
IT plan will also include a new system that can track historical 
changes of addresses and names for foreign companies which will provide 
for more rapid identification of hazardous imported products. The new 
system will also integrate several third party sources of information 
that will yield improved monitoring. Finally, it will potentially give 
us, for the first time, an effective tool to flag and guard against 
foreign suppliers who repeatedly ignore our product safety 
requirements.
                establishing a new early warning system
    The new IT improvements will also support our new Early Warning 
System (EWS) which I initiated last year to enhance our current hazard 
identification systems. The goal of the EWS is to systematically 
identify and respond to children's product safety hazards starting with 
cribs, bassinets and playpens. This initiative is important because it 
is designed to address emerging hazards more quickly and effectively. 
Through an enhanced identification system, the agency will be able to 
detect product hazard patterns more promptly as they emerge.
                        ongoing cpsc activities
    While I have discussed CPSC's new systems, programs and 
infrastructure at length, it is also important to recognize the 
critical ongoing work of the agency in standards setting, domestic 
enforcement and public education.
    Though the Commission was without a quorum for the better part of 
2007, I am pleased to report that the agency was able to make progress 
on a number of fronts. As a result of last year's staff work, the 
Commission was able to vote earlier this year, before the quorum again 
expired, on a final rule to update our clothing textile flammability 
standard and on a notice of proposed rulemaking on upholstered 
furniture flammability.
Reducing Carbon Monoxide Poisonings
    Additionally, the Commission completed a great amount of work to 
reduce carbon monoxide (CO) poisonings.
    First, the Commission issued a mandatory rule last year for a new 
danger label for portable generators to warn consumers about CO 
poisoning and to encourage safe use. The regulation became effective on 
May 14, 2007, for all portable generators manufactured or imported 
after that date.
    Second, the Commission issued an advance notice of proposed 
rulemaking in December 2006 to initiate a multi-faceted proceeding that 
includes as its goal reducing consumer exposure to CO through technical 
means and performance standards that will enable and encourage proper 
generator placement outdoors.
    Third, the CPSC awarded a contract to develop a prototype generator 
engine with reduced CO in the exhaust.
    Fourth, CPSC staff has an interagency agreement with the National 
Institute of Standards and Technology (NIST) to conduct physical 
testing and indoor air quality modeling of in-home CO infiltration in 
various styles of homes when a generator is used in various locations.
    Finally, CPSC staff conducted a proof-of-concept demonstration of a 
remote CO sensing automatic shut-off device, as well as an interlock 
concept in which a CO sensor was located in the generator. The results 
of these investigations will help determine practical and effective 
performance requirements for portable generators and provide the basis 
for subsequent rulemaking activity.
Implementing a New Mattress Flammability Standard
    In 2007, the CPSC's new mattress flammability standard became 
effective. The staff estimates that the new standard, when fully 
effective, will prevent as many as 270 deaths and 1,330 injuries 
annually.
    In implementing the new standard, CPSC staff has sponsored and 
participated in education seminars for manufacturers and retailers. 
Staff has also developed a dedicated mattress information webpage and 
prepared and distributed several reference documents and informational 
brochures.
    In addition to the progress the agency has made on these 
rulemakings, the CPSC is continuing its work in the voluntary standards 
process by providing expert advice, technical assistance, and 
information based on data analyses of how deaths and injuries occurred. 
Staff is currently supporting the development or revision of over sixty 
voluntary standards, including those to reduce fires related to 
candles, batteries, appliances and other electrical products.
Enforcement and Compliance Efforts
    CPSC's Office of Compliance completed 473 cooperative recalls in 
2007 involving approximately 100 million product units. While those 473 
recalls in 2007 were heavily publicized in the media, they were only 
marginally above the 467 cooperative recalls that were completed in 
2006, and in fact, they involved fewer than the 120 million product 
units in 2006. The increased media attention on the CPSC in 2007 did, 
however, have the salutary effect of raising both public awareness of 
the agency's safety mission and its effectiveness in removing products 
from the marketplace that violate mandatory standards or present a 
substantial risk of injury to the public.
    To assist industry in recalling products and complying with our 
regulations easily and quickly, the agency relies on Fast Track product 
recalls to streamline the process for firms that are willing and 
prepared to recall their products promptly. Because every defective 
product presents a risk of injury or death, removing hazardous products 
from the marketplace faster can prevent more injuries and save more 
lives. Recalls under the Fast Track program are conducted without the 
need for a time-consuming hazard analysis and, over 90 percent of the 
time, are implemented within 20 days of a firm's report to the CPSC. 
For non-Fast Track corrective actions, we also established new 
efficiency goals to complete key actions within a specified time 
period.
Educating the Public
    CPSC's Office of Public Affairs is very active in educating the 
public and informing consumers of recalls and emerging hazards. In 
2007, that Office issued more than 350 press releases on product 
recalls and safety information and completed more than 20 safety 
campaigns on such topics as all-terrain vehicles; mattress safety; 
stove, television and furniture tipovers; portable generator dangers; 
and outdoor and indoor drowning prevention. American consumers viewed 
safety information announced by the CPSC more than a half billion times 
through television interviews, video news releases, free publications, 
and the Neighborhood Safety Network.
    I am especially proud of that Office's work on outreach to the 
Spanish-speaking community. In 2007, we translated the Neighborhood 
Safety Network Toolkit into Spanish, as well as several safety 
publications and three times the number of press releases as in the 
previous year. The CPSC coordinated a Lead Poisoning Prevention Web 
site in cooperation with other Federal agencies and the National 
Council of La Raza.
    Before concluding, I should note that the House and the Senate have 
passed different versions of reauthorization legislation for the CPSC. 
CPSC's fiscal year 2009 budget request does not include funding 
increases in the event that Congress finalizes this legislation and the 
President signs it. Since it is clear that the final legislation would 
impose substantial new regulatory, enforcement and other mandates on 
the CPSC, we will, of course, be in further contact with the 
appropriations Committees in that regard at the appropriate time.
    The CPSC is an agency that is undergoing change, like no other 
agency of Government, with significant budget increases, comprehensive 
reauthorization, and national attention unlike ever before in its 
history. As we make the transitions that accompany this change, I look 
forward to continuing to work closely with the Committee. Our common 
goal is to assure the safety of the products that American families 
bring into their homes, schools and recreation areas. I am honored to 
serve the American public as Acting Chairman of the Consumer Product 
Safety Commission at this time of great challenge and great 
opportunity, and I look forward to answering your questions.
    Thank you.

    Senator Durbin. Commissioner Moore.

                  SUMMARY STATEMENT OF THOMAS H. MOORE

    Mr. Moore. Mr. Chairman, Mr. Ranking Member, thank you for 
providing me with this opportunity to present testimony before 
you today on the U.S. Consumer Product Safety Commission's 
fiscal year 2009 appropriations request.
    For our current fiscal year 2008, Congress, led by this 
subcommittee, took up the cause of the American consumer by 
focusing on, and addressing, the serious deficiencies at the 
Commission resulting from our most recent years of shrinking 
resources. Our agency was appropriated $80 million, a $16.75 
million increase over the administration's request.
    For fiscal year 2009, the President's funding request for 
the agency is $80 million, which is equal to the level of 
funding provided by Congress for fiscal year 2008. With this 
amount of funding, we propose to hire up to a level of 444 
full-time employees. Additionally, we propose to continue our 
efforts to acquire a modern, state-of-the-art laboratory 
facility and to acquire additional office space, which we will 
need to accommodate some of our new hires.
    The fiscal year 2009 request on its face is a request for 
level funding from 2008. However, there are a number of one-
time expenses occurring in 2008 that are not anticipated in 
2009. Not having those expenses in 2009 provides the Commission 
with $5.8 million to direct toward activities which would give 
indications of growth as opposed to stagnation or movement in 
the negative direction.
    Most important to me is our now present ability to rebuild 
our staff. CPSC is a staff-intensive organization, as I have 
said previously. At the heart of CPSC's operation is its staff, 
without question our greatest and most important asset.
    In addition to Congress' focus on Commission appropriation 
issues, both Chambers, the House and the Senate, have passed 
reauthorization legislation. Both bills provide significant 
increases in our authorization levels for future years at the 
Commission. The bills would require the Commission to undertake 
a number of activities that I am not taking into consideration 
as I present this statement. I cannot say at this time what 
resources we would need to fully implement any new 
requirements. When a final package is agreed upon and signed 
into law, we certainly intend to communicate with this 
subcommittee with respect to any future requirements and their 
effect on Commission resources.
    Also, last December, the President signed into law the Pool 
and Spa Safety Act. For fiscal year 2009, the act authorizes $7 
million for the Commission to carry out its requirements. Our 
staff has done an estimate of the cost of carrying out the 
requirements of the act and has advised the Commission that for 
fiscal year 2009, we would need an additional--an additional--
$7.887 million. The President's request of $80 million does not 
include this funding and Congress would have to include 
additional funds above the President's request for the 
Commission to carry out the act's requirements.
    Mr. Chairman, I want to thank this subcommittee for your 
recognition of the importance of our agency with respect to 
product safety for American consumers. The sale of unsafe 
consumer products remains a major national problem. Because of 
your attention and assistance, we are now on the way back to 
firm footing in preventing unsafe, potentially harmful consumer 
products from causing deaths and injuries to American 
consumers. The continued support of this subcommittee is 
essential to a successful fulfillment of our mission.

                           PREPARED STATEMENT

    I thank you again, and I am now available to respond to 
questions that you may have. Thank you.
    Senator Durbin. Thank you, Mr. Commissioner.
    [The statement follows:]
                 Prepared Statement of Thomas H. Moore
    Mr. Chairman, Ranking Member, and members of the subcommittee, 
thank you for providing me with this opportunity to present testimony 
before you today on the U.S. Consumer Product Safety Commission's 
(CPSC) fiscal year 2009 appropriations request.
    In summary, for fiscal year 2009, the President's funding request 
for the agency is $80,000,000 which is equal to the level of funding 
provided by Congress for fiscal year 2008. With this level of funding, 
we propose to hire up to 444 Full Time Equivalents (FTEs) from our 
budget submission level of approximately 380 FTEs. Additionally, we 
propose to continue our efforts to acquire a modern laboratory facility 
and to acquire additional office space, which we will need to 
accommodate some of our new hires.
    However, it must be noted that the fiscal year 2009 funding request 
does not take into consideration the cost of implementing the 
requirements of the ``Virginia Graeme Baker Pool and Spa Safety Act'' 
nor does the 2009 funding request address the cost of implementing 
possible requirements of any final passage of a conference agreement on 
the ``Consumer Product Safety Commission Reform Act'' as passed by the 
Senate and the ``Consumer Product Safety Modernization Act'' as passed 
by the House.
    On December 19, 2007, the President signed into law the Virginia 
Graeme Baker Pool and Spa Safety Act which is aimed at reducing the 260 
pool and spa drownings each year involving children younger than 5 and 
reducing suction entrapment deaths and injuries. The act addresses pool 
and spa safety issues by specifying requirements that would make pools 
and spas safer. The act also authorizes the Commission to establish an 
incentive-based grant program for States, subject to the availability 
of appropriations. Additionally, the act requires the Commission to 
``establish and carry out an education program to inform the public of 
methods to prevent drowning and entrapment in swimming pools and 
spas.''
    For fiscal year 2009, the act authorizes $7 million for the 
Commission to carry out these requirements. Our staff has done an 
estimate of the cost of carrying out the requirements of the act and 
advised the Commission that, for fiscal year 2009, we would need an 
additional $7.887 million--which would provide for start-up cost, 
contract cost, the cost of an additional 6 FTEs, and other costs 
associated with implementing the requirements of the act. As I have 
indicated, the President's request of $80 million does not include 
funding for these activities and Congress would have to include 
additional funds, above the President's request, for the Commission to 
carry out these requirements.
                   impact of fiscal year 2008 funding
    In order to fully understand our fiscal year 2009 request, we must 
first look at what is transpiring for us in fiscal year 2008. In fiscal 
year 2008, the administration's budget contemplated funding the 
Commission at $63,250,000 which would have resulted in an all-time low 
funded staffing level of 401 FTEs; a decrease of 19 FTEs from the 
fiscal year 2007 funded level. As I indicated in my written statement 
to this subcommittee last year, such a funding level would have had a 
devastating effect on the agency's ability to maintain the broad range 
of skilled staff we need to address the full scope of the 15,000 types 
of consumer products under our jurisdiction. Congress, led by this 
subcommittee, took up the cause of the American consumer by focusing 
on, and addressing, the serious deficiencies at the Commission 
resulting from our most recent years of shrinking resources by 
appropriating $80 million, a $16.75 million increase over the 
administration's request.
    With the additional resources, the Commission has been able to 
start the process of reversing the effects of the Commission's downward 
spiral in staffing. The Commission is now able to begin filling 
critical vacancies, moving our staff level in the positive direction 
toward 420 FTEs. We have also started a process to reacquire 
headquarters office space that we forfeited in order to reduce our 
operating cost.
    Part of our staffing increase has been directed to an import safety 
initiative through the creation of a new Import Surveillance Division 
in the Office of Compliance and Field Operations. For the first time, 
CPSC will have permanent, full-time product safety investigators at key 
ports of entry throughout the United States. Initially, we have 
identified up to 10 ports where we will assign personnel.
    We are also implementing an Early Warning System (EWS) initiative 
which is designed to identify emerging product safety hazard patterns 
more quickly and effectively in children's products such as cribs, 
bassinets and play yards (playpens). Fiscal year 2008 funding will 
allow staff to continue to develop and implement processes and 
procedures to evaluate and characterize hazard scenarios and failure 
modes which should alert the Commission staff that a product hazard may 
exist and quick action to address it must ensue.
    The additional resources for fiscal year 2008 will also allow the 
Commission to move in the direction of expediting the acquisition of a 
new state-of-the-art laboratory facility and equipment. We will commit 
$8 million of fiscal year 2008 funding toward this effort. The 
Commission is taking the approach of acquiring a new facility as 
opposed to modernizing the present laboratory site based on current 
projections by CPSC staff, GSA, and OMB that acquiring a new facility 
would be a more cost effective, more expeditious, and more efficient 
process for the Commission than rehabilitating the present laboratory 
site.
    Our laboratory situation is well known to most people who have 
focused on the problems presented by the Commission's limited resource 
allocations in recent budgets. We have been trying, through various 
avenues, to remodel or rebuild our existing facility for many years. We 
now appear to be getting closer to the reality of a new testing 
laboratory. The process with GSA has been frustrating, with their 
stated deadlines to us slipping again and again. Last year when GSA 
gave us the preliminary estimate of how much they were going to raise 
the rent at the current laboratory facility (with no improvements) it 
seemed the last straw. (They have since backed off substantially from 
the threatened initial rent increase.)
    Finally, after much discussion, GSA was willing to start the 
process of looking at what other facilities might be available to see 
if the option of moving the lab was more cost effective than rebuilding 
the present one. Perhaps, by the end of this fiscal year we will have a 
much better handle on that option, but given the fits and starts of 
this process I am not as confident as I would like to be about the 
outcome. The cost estimates we are operating on are numbers from OMB 
and GSA, based on the assumption that we will indeed find appropriate 
new space for all of our current and future testing needs as well as 
office space for perhaps as many as 70 of our other employees. I am 
hopeful that at the end of this process we will have a clear picture of 
the efficiency and cost effectiveness of moving in this direction. For 
now, I must simply go on what information staff is presenting to me on 
this issue and I have consented to fully exploring this option.
    We are also able, for the first time, to establish in our base 
funding, a capital fund to replace aging and outdated Information 
Technology (IT) equipment and we are able to dedicate funds to further 
the process of developing more advanced electronic applications for our 
IT system. These advanced electronic applications will be essential to 
the Commission's Import Safety and EWS initiatives as well as an 
important element in converting our current, disparate database systems 
to a one-stop data acquisition system. Moreover, we are able to replace 
our outmoded resource management information system, for which vendor 
support was withdrawn due to the age of the system. Not included in 
this budget are resources to integrate and modernize our various 
database systems into one larger searchable format, an improvement to 
our data analysis capabilities that we have wanted for a long time. If 
Congress requires the agency to create additional publicly accessible 
databases--a move I strongly support--being able to do that in the 
context of improving our overall data capabilities would be especially 
helpful.
    The fiscal year 2008 increase will additionally provide for other 
important product safety related activities such as a modest increase 
in our contract funds for our rulemaking, research, and project 
support. And, because we need to be able to compete with other 
governmental agencies and the private sector for qualified candidates 
to fill our vacancies, the budget increases funds for our staff 
training and staff performance incentives.
    Most important to me in our fiscal year 2008 increase is our now 
present ability to begin rebuilding our staff. CPSC has been under a 
glaring spotlight for the last year. While it is not always a 
comfortable position for the agency to be in, for me, it has been 
welcomed and much needed attention. It brought to light, especially for 
Congress, the woeful state of the agency's resources, from its 
declining staffing levels to its aging and inadequate laboratory 
facilities. For too many years the agency had been forced to put a 
brave face on its situation by claiming it could do more with less. 
When we stopped getting enough resources to meet our basic needs that 
claim began to ring hollow and the agency was left without the 
necessary tools to properly police the consumer product marketplace.
    Now, not only has Congress shown a willingness to give us the 
resources we so desperately need, but it has also positioned itself to 
increase our authorities and responsibilities. I am very thankful for 
Congress' efforts on our behalf. I do hope, however, that any final 
authorization bill that Congress passes gives the Commission the 
necessary time it will need to rebuild to meet our current 
responsibilities. Once we reach that point, then we can give full 
concentration to tackling the many new responsibilities that are 
projected to be part of a final reauthorization package.
    Our fiscal year 2009 budget assumes that we will have 444 staff on 
board for the beginning of fiscal year 2009. This requires us to add 
nearly 65 new employees, a 17 percent increase over our budget 
submission level. That will bring us almost back to our fiscal year 
2005 staffing level of 446 FTEs. When I first came to the agency in 
1995, we had final FTE authority of 487 FTEs and averaged 474 FTEs on 
board for the year. So we still will need to hire another 30 people in 
fiscal year 2010 just to get us back up to our 1995 staffing level, a 
staffing level at which we handled that year's existing 
responsibilities fairly comfortably.
    Over time we hope to be able to hire and train capable replacements 
for those that have left, but the experience that we have lost due to 
their departure will take years to recover. I am very optimistic that 
now, with the change in attitude about the Commission's importance that 
has manifested itself in our increased funding levels, we will be able 
to reverse the negative perceptions about the Commission and move in a 
positive direction on our staffing issues and, therefore, on product 
safety.
          cpsc's safety work can continue in fiscal year 2009
    By most measures, CPSC provides both tremendous service and 
tremendous value to the American people and we are very proud of our 
staff's accomplishments. Our agency is the major factor in the 
substantial decline in the rate of deaths and injuries related to 
consumer products since 1974. During that time, through our standards 
work, compliance efforts, industry partnerships, and consumer 
information, there has been a 43 percent reduction in residential fire 
deaths, a 74 percent reduction in consumer product-related 
electrocutions, a 41 percent reduction in consumer product-related 
carbon monoxide deaths, an 83 percent reduction in poisoning deaths of 
children younger than 5 years of age, an 88 percent reduction in baby 
walker injuries and an 84 percent reduction in crib-related deaths.
    The fiscal year 2009 request, on its face, is a request for level 
funding from fiscal year 2008. What we really have, however, amounts to 
a $5.8 million increase. Assuming the projections on the lab are 
accurate, we will spend $2 million less on the lab in 2009 and we have 
another $3.8 million in other non-recurring, one-time costs that we are 
funding in 2008 that we don't fund in 2009 for a total of $5.8 million 
in additional funds for 2009.
    Of that, $2.457 million will go to maintaining the costs of the 420 
employees we anticipate having on board in fiscal year 2008, along with 
increases in other fixed costs such as rent. Another $3.218 million 
will go to hiring 24 new employees to supplement and to provide support 
for the Import Safety Initiative. We have also targeted $125,000 for 
travel for the U.S.-Sino Product Safety Summit. While I note that both 
the pending reauthorization bills anticipate the Commission receiving 
additional funding for the modernization of our testing and research 
laboratory, our budget requests for both fiscal year 2008 and fiscal 
year 2009 are constructed to utilize a large portion of the funding 
increases provided by Congress for the laboratory modernization, 
certainly a greatly needed improvement. The rest of the increases begin 
the crucial staff rebuilding and the acquisition of additional office 
space to accommodate the additional staff. Those concentrations leaves 
us little for anything else.
    Now, there are certainly many questions remaining unanswered at 
this time concerning reauthorization legislation requirements. I know 
that there are many questions about what should be included as part of 
our request for our fiscal year 2009 budget. At this particular moment, 
it is extremely difficult to determine what additional staff and funds 
we will need to meet the new responsibilities that Congress may give 
us. We have made no attempt to do that in the fiscal year 2009 budget 
request as that would have been premature. The Acting Chairman's office 
in a response to a question presented by House appropriators had staff 
prepare estimates as to what those resources might be (some of those 
estimates are already going through second revisions), but we are all 
flying somewhat blindly until we have a final bill with definite 
requirements and timelines for Commission action. I hope that the 
deadlines in the final bill will take into account the time needed to 
hire and train new employees, to find them adequate office space and to 
integrate them and their skills into our existing workforce. The 
Commission hasn't had to hire at this pace since it was first 
established back in the 1970s.
    We at the Commission strongly feel that many, many deaths and 
injuries have been prevented as a result of the heightened attention 
given to safety issues by manufacturers and consumers due to CPSC's 
leadership. However, we are very mindful that the product safety 
landscape is ever evolving because of more technologically complex 
products as well as an ever growing emphasis on imports. Last year's 
heightened activities with respect to imported toys, in particular, 
clearly illustrate the benefits of a strong CPSC Federal presence in 
today's consumer product marketplace and therefore provide substantial 
justification for present and future funding to keep our safety 
programs intact.
                               conclusion
    As I have indicated, Congress is poised to come to agreement on a 
final reauthorization package. Both bills under consideration provide 
significant increases in our authorization levels for future years at 
the Commission. The authorization levels reflect my own views on how 
growth should be contemplated for the Commission, and I am hoping that 
future appropriations will be in line with the House and Senate final 
agreed upon authorization levels.
    As I have previously discussed, the bills would also require the 
Commission to undertake a number of activities that I am not taking 
into consideration as I present this statement. The final legislative 
package will most certainly contain some significant new regulatory, 
enforcement and other mandates that could have some effect on what 
resources we would need to fully implement all of the requirements. 
When a final determination is made, we certainly intend to communicate 
with this subcommittee with respect to future requirements and their 
effect on Commission resources.
    Mr. Chairman, I want to thank this subcommittee for your 
recognition of the importance of our agency with respect to product 
safety for American consumers. The sale of unsafe consumer products 
remains a major national problem. Because of your attention and 
assistance, we are now on the way back to firm footing in preventing 
unsafe, potentially harmful consumer products from causing deaths and 
injuries to American consumers. The continued support of this 
subcommittee is essential to a successful fulfillment of our mission.

                            STAFFING LEVELS

    Senator Durbin. Chairman Nord, if I recall, it was in 
December when it was clear that we were sending you this pretty 
substantial increase in your appropriation to $80 million, and 
I was asking the staff here what kind of staffing levels you 
had last year at this time. We think it was around 400 million 
FTE's. Pardon me. 400 FTE's.
    Ms. Nord. You have been dealing with other agencies way too 
long.
    Senator Durbin. I am not sure there is any agency with 400 
million. But 400 FTE's.
    Now, historically we have talked about where this agency 
has been. 980 is the high watermark and now apparently at 380, 
the low watermark. So the question I have is that in the 4-or 
5-month period of time that we have sent you the new resources 
to staff up, it appears you are staffing down. It appears you 
are losing ground. Some 5 percent of your employees have left 
and not been replaced, instead of an additional 10 percent 
being hired. So can you give us an indication of why the trend 
line is moving in the wrong direction?
    Ms. Nord. Well, we see attrition on a regular basis. You 
generally see one or two every month leave, and those people 
have to be replaced to keep you even. But since January, we 
have brought on 21 new hires. We have got 12 offers out right 
now. We have got well over 30, almost 40 new positions that are 
in the mix for being put out for advertisement. So we are 
working really very, very aggressively to get up to that goal 
of starting the fiscal year with 444 FTE's.
    Senator Durbin. So are the 21 that you have hired included 
in the 380 number?
    Ms. Nord. If they are on board, they would be included in 
our current staffing.
    Senator Durbin. What is your current staffing? What number?
    Ms. Nord. It is approximately 385 to 390. I will have to 
give you the precise number.
    Senator Durbin. Well, I do not want you to go out and pick 
the first person off the street, and I am sure you would not 
want to.
    Ms. Nord. No.
    Senator Durbin. But we sure want to make certain that you 
understand the sense of urgency. I will tell you why, and I 
think you know it better than I do.
    The biggest scandal last year involved toys. We know that 
the design for toys for this coming holiday season in 
December--those were all agreed on last year, and they are 
currently under manufacture and currently being shipped to the 
United States. So the new dolls, the new games, whatever they 
happen to be are on their way. Clearly, we have to be ready to 
make sure that the American families do not go through the same 
thing next holiday season that they did the last one.
    Ms. Nord. I do understand your sense of urgency and I share 
that, Senator.
    The thing that I would like to point out is that the type 
of people we are seeking to hire are statisticians, scientists, 
toxicologists, human factors, engineers. These people are 
essential to our operations, but they are also in demand in 
other Government agencies who are also now trying to staff up, 
as well as in the private sector. So this is something we are 
committed to doing. We are working full out right now to get 
ourselves up to the 444. That is our goal and we are working 
very hard to reach it.
    Senator Durbin. We are going to keep in touch with you to 
monitor your progress----
    Ms. Nord. Good.
    Senator Durbin [continuing]. And hope that you can reach 
the 444 with competent individuals as quickly as possible.

                      NEW IMPORT SAFETY INITIATIVE

    Let me ask you about the import safety initiative, which 
will allow you to put permanent, full-time product safety 
investigators at key ports. How many ports will be part of this 
initiative and how many investigators will be placed at these 
ports?
    Ms. Nord. We are going to be putting people at 10 different 
ports. Our overall division is going to be approximately, I 
believe, 12 people, and I would prefer to give your staff 
privately the locations of those ports, if I could.
    Senator Durbin. May I ask, if you are talking about one 
person or slightly more than one person per port, what kind of 
workload will that person face?
    Ms. Nord. Well, they will certainly face a very heavy 
workload, but the thing that needs to be remembered here is, 
first, we have to start someplace.
    And second, we do anticipate that this is a program that 
will grow based on our experiences this year.
    Third, these people are not out there standing alone. They 
are supported by technical staff back at headquarters and also, 
very, very importantly, they are going to be working hand in 
glove with their colleagues from Customs. And that relationship 
between CPSC and Customs has grown wonderfully well over this 
past year, and I am very encouraged by the support that we are 
getting.
    Senator Durbin. Are you considering any new technology in 
these ports for the detection of lead or other dangerous 
substances?
    Ms. Nord. Yes. Because of the increased funding that we 
were able to receive from you, we have now acquired what is 
known as XRF technology. This is important because it allows us 
to screen for potential violations. What we had to do before is 
if the inspector's eye saw something that they thought was 
suspicious, that product had to be sent back to Washington for 
testing, and that was a process that took a great deal of time. 
So this allows us to screen it right there quickly. We can then 
separate out the things that pass from the things that need a 
further look.

                WILL THERE BE A CPSC PRESENCE IN CHINA?

    Senator Durbin. My last question. Do you expect to place 
any staff in China?
    Ms. Nord. If I have my way, we will.
    Senator Durbin. You are the Acting Chairman.
    Ms. Nord. Yes. We have been having conversations with the 
Beijing Embassy and with the State Department about having a 
foreign service national assigned to us over there. If we are 
to send CPSC staff there and put them there, that is a big 
undertaking for our agency. I believe it requires a vote of the 
Commission, and at this point, you know, we do not have a 
quorum. But I think that would be a good thing to do. So I will 
certainly be voting for it.
    Senator Durbin. I am going to turn this over to Senator 
Brownback. I have to step out while he questions, but I will be 
returning.
    Senator Brownback. Thank you, Mr. Chairman.
    Are you conducting any surprise inspections in China now?
    Ms. Nord. We do not do inspections per se in China as, for 
example, the FDA does. What we are doing is all our recall 
notices go directly to our counterpart agency in China, and 
they investigate them. We are now getting very detailed reports 
back from them as to their findings. We have monthly video 
conferences where we go over each of the recalls and what their 
investigations found.
    Senator Brownback. What about doing surprise inspections in 
China? You were talking about putting personnel or somebody at 
the Embassy there. What about doing surprise inspections?
    Ms. Nord. It is clear actually that under our statute we 
only regulate American product sellers. So we would not have 
the legal authority to go into a Chinese-owned plant with an 
American inspector and do an inspection. What will happen is 
that the Chinese Government does that, and if we have people in 
China, then they could certainly participate in those 
inspections, but they would have to be done by the Chinese 
since they would be inspecting Chinese factories.
    Senator Brownback. Therein lies the rub, if you will, 
because we are getting so much from China and we are having so 
many problems and their system is so different from ours. That 
is the problem. You could kind of say, well, okay, China has a 
free press and so they are going to kind of track these issues 
or get some light on them. Well, they do not. If they had an 
open political system where you would have different political 
parties batting this around, well, okay, maybe that would be 
something that would produce it. They do not. It is well known 
the corruption and graft that is taking place at local levels 
in China. The national level of the Chinese Government is 
trying to get some competitiveness at a local level because of 
primarily dealing with graft and corruption that they are 
trying to get out of the system but is there.
    So I do not know how we depend upon the Chinese Government 
to assure that we get a decent product without us being there 
and in on surprise inspections.
    Ms. Nord. We cannot look to the Chinese Government to 
enforce American safety laws, and we do not intend to. But what 
we can do is put in place a number of different kinds of 
processes that will push toward an ultimate result of safer 
products, and that is what we were trying to do with the 
agreements that we signed last September that created a 
framework for this ongoing activity. That is what we are trying 
to do with our monthly meetings with the Chinese. That is what 
we are trying to do with the training sessions that go on in 
China.
    But having said all that, it is very, very important that 
we also understand that we have got to be looking at layers of 
protection. We can do all that with China, but we have got to 
make sure that we are vigilant at the ports, that we have got 
police on the beat, that is to say, that we recall products 
when we find violations, and that we put penalties in place.
    But one of the things that I think is important for you to 
know, Senator, is that, first of all, the number of toy recalls 
and lead paint violations is going way down. And also it is 
important and I think very good news that we have not yet seen 
any products manufactured after the point of our agreements 
that have been recalled for lead paint violations.
    Senator Brownback. If I could before my time is up, have 
the total number of consumer product recalls on imported items 
from China increased or decreased since September 2007, and not 
just the lead-based products?
    Ms. Nord. I am sorry. I did not have that statistic. The 
number of recalls that we have done in fiscal year 2008 is 
going up, but those are products that were already in the 
marketplace. They are not new products that have entered the 
marketplace since September. So they are things from 2005, 
2006, that kind of thing.
    Senator Brownback. Just to conclude on this, when you catch 
it, the horse is already out of the barn. It is in the consumer 
marketplace here and that is where we catch it when we ought to 
be backing up a lot earlier on this. I do not have confidence 
that, with whatever kind of cooperation we get from the Chinese 
Government, that they are going to catch this. And at the point 
at which we catch it, it has already entered the consumer 
marketplace.
    Ms. Nord. That is why the layers of protection is such an 
important concept. Obviously, consumers are better off if the 
product is manufactured safely in the first place, and that is 
what we have to be shooting for.
    Senator Brownback. Thank you.
    Thank you, Mr. Chairman.

                          CPSC REAUTHORIZATION

    Senator Durbin. Chairman Nord, when the Consumer Product 
Safety Commission Reform Act was pending, Commissioner Moore 
and you sent letters to Chairman Inouye about it, and you have 
alluded to it in your testimony today. Now, of course, this 
bill, having passed the Senate, is subject to conference with 
the House in terms of its outcome.
    I just want to make sure that I understand what you have 
said today. If this bill as passed in the Senate was enacted 
into law, would this give you more tools and more authority to 
do your job?
    Ms. Nord. It would certainly give us more tools and more 
authority.
    Senator Durbin. Is there any way that you think provisions 
of this bill would make your job more difficult?
    Ms. Nord. There are a number of new mandates in the 
legislation and they have very, very short time deadlines on 
them. So we will either have to come back to you with a plan 
for staffing up, to the extent we can, or reallocating existing 
resources, taking things off existing projects and putting them 
on what is there.
    Senator Durbin. Can you give me any examples of those 
mandates as you are sitting there?
    Ms. Nord. Oh, gosh. The bill set out a whole schedule for 
doing rulemakings on children's products, durable infant 
products.
    Senator Durbin. Like tracking labels for children's 
products?
    Ms. Nord. Well, no, doing rulemakings on putting in place 
rules dealing with durable children's products.
    Senator Durbin. Such as a comprehensive ban on lead?
    Ms. Nord. Well, that certainly is there as well, but I was 
speaking of something else.
    Senator Durbin. I am trying to get down to what you are 
speaking of. I am not trying to misstate you.
    Ms. Nord. The bill tells us on a schedule we are to 
finalize two rulemakings every year on durable children's 
products. It also, as you point out, has the ban on lead, and 
we are working very hard with the authorizers' staff to----
    Senator Durbin. I hope you do not disagree with that 
mandate.
    Ms. Nord. Oh, of course, not.

                      CONSUMER COMPLAINT DATABASE

    Senator Durbin. What about the online product safety 
database enhancing public access to product safety information? 
Does that exist today?
    Ms. Nord. No, it does not.
    Senator Durbin. Do you know what it would take to put that 
database in operation? Have you considered that?
    Ms. Nord. Yes. I have asked our information technology 
people to give us some estimates, and they have advised me that 
to do what is described in the Senate bill as it passed would 
take approximately $20 million in startup costs and about $2.5 
million to $3.5 million annual maintenance cost.
    If I may expand, the database is a very good example of why 
we really need to get a better handle overall on our 
information technology needs. Unfortunately, because the agency 
has been short funded, we have put together databases on an as-
needed basis. They are stovepiped. They do not communicate with 
each other, and for our staff to have the tools it really needs 
to do its work, we have got to modernize our IT resources.

          SENATE CPSC REAUTHORIZATION BILL AND COST ESTIMATES

    Senator Durbin. I would like to ask you, if you would, to 
take a look at the bill that passed the Senate.
    Ms. Nord. Yes.
    Senator Durbin. And if you would give us your best estimate 
from your staff of where you consider to be the most expensive 
and the most challenging elements of that bill, I would like to 
know because I want to get this bill passed. We have been 
working hard to get the conference committee to go to work on 
it, and I want to be thinking in terms of next year's 
appropriation as to what will be needed. For example, this 
database requirement here. If people can come up with a 
reasonable estimate of what that might cost, I want to be 
thinking ahead about what that might require in the next 
appropriation bill.
    I believe in this bill. I introduced an earlier bill which 
was very similar to it. Senator Pryor improved on it and did a 
great job leading it through the floor on a bipartisan basis. 
But I want to think ahead to what these new challenges might be 
and what their costs might be. It certainly is not going to be 
served with a remake of the $80 million fiscal year 
appropriation for this year. It is going to take more.
    Ms. Nord. We will need an amendment, and I will be happy to 
do that.
    Senator Durbin. If you would, please, I would appreciate 
that very much.

          MOST IMPORTANT ELEMENTS OF CPSC REAUTHORIZATION BILL

    Commissioner Moore, your letter in reference to this bill 
was much more supportive in terms of the tools that it would 
give to your Commission. As you reflect on that, were there any 
specifics that you had in mind that you think could really make 
a difference in the way you do your job?
    Mr. Moore. Certainly given the increase in the number of 
products coming in through our ports, the ability to expand our 
study and our interest in products as we meet them at the 
ports, at the docks, I think is very important. To the extent 
that we can turn products around if they are violative--they do 
not meet standards--I think the more effective we can be in 
controlling product safety problems.
    Senator Durbin. Mr. Moore, I think we all understand what 
happened last year. It was a troubling time for many American 
families. There were questions raised about toys in particular 
but other products as well. And a lot of people came up to me 
in my State and to other Senators and said, what is safe? What 
is it safe to buy? And I could not tell them. I really did not 
know the answer to that question. I could not make a 
recommendation of what to do.

                         ARE WE BETTER OFF NOW?

    Do you feel that there is anything happening at the 
Commission today which gives you confidence that the next 
holiday season will be any different or any better?
    Mr. Moore. Well, I think one of the most risky elements of 
products out there most recently has been lead in children's 
toys, and I think there has been enough publicity and enough 
vocal concerns raised about that, that I think the public is 
very much aware. Also manufacturers are very much aware. And, I 
think to the extent that we can eliminate that particular 
problem, that is a major consideration.
    Senator Durbin. It is.
    Chairman Nord, let me ask you the same question. Can you 
tell me with any degree of certainty that the next holiday 
season, that families can have more peace of mind in the toys 
and products that they are purchasing, that we will have done a 
better job or that the process will be any safer?
    Ms. Nord. Last Christmas, the toys, because of what 
happened, were the most tested and examined in the history of 
our country. We need to build on that. I think that the toy 
industry safety initiative is a really interesting proposal 
because, to Senator Brownback's concern, it really does force 
an examination of the Chinese factories. I think that if I 
could have one thing only from the authorization bill--this is 
something I asked for last summer--it is to have certification 
authority. That would do so much to help us. It would drive 
testing. It would give us another tool for imports. That simple 
thing.

                        CERTIFICATION AUTHORITY

    Senator Durbin. Certifying laboratories?
    Ms. Nord. No. Certify that toys meet all relevant 
standards.
    Senator Durbin. Where would the certification take place?
    Ms. Nord. The importer and the product seller would have to 
get it certified.
    Senator Durbin. Where?
    Ms. Nord. If it was manufactured in China, they would have 
to have it tested there.
    Senator Durbin. So there would be laboratories doing this 
work.
    Ms. Nord. Absolutely.
    Senator Durbin. That we would certify.
    Ms. Nord. Absolutely.
    Senator Durbin. And that would, obviously, mean that some 
CPSC employees would have to be traveling to these 
laboratories.
    Ms. Nord. Well, we would certainly be traveling to these 
laboratories, but I think we would be setting up a structure 
that would make sure that the quality control is in place, but 
that all flows from that simple certification requirement.
    Senator Durbin. Is there any effort underway now, even 
absent this new reform bill, to establish these laboratories in 
China, not Government laboratories, but private laboratories, 
the names of which we might recognize?
    Ms. Nord. There are many ongoing efforts. I think the 
community has anticipated that the bill will pass, and that 
sets out a very full third party, independent testing and 
certification requirement. And so they are gearing up for that 
now.
    Senator Durbin. And are you involved at all in that current 
undertaking?
    Ms. Nord. Yes.
    Senator Durbin. What does the CPSC do?
    Ms. Nord. Well, our staff is working very closely with the 
other Government players who have experience doing this in 
other areas. I mean, we have an ongoing relationship with all 
the testing and certification accreditation bodies. You know 
them as well as I, UL, ANSI, ASTM, and there are many others 
that have a role to play here, and we work daily with them.

                             ENDING REMARKS

    Senator Durbin. I do not have any further questions. I want 
to thank Commissioner Moore and Chairman Nord for being here 
today.
    We are looking forward to receiving your best estimate of 
what impact the new reform bill might have on your agency. I 
encourage you as quickly as possible in a professional way to 
try to get staffed up to make sure that we have the technical 
staff and investigators, both here in the United States and 
overseas. If there is any need of this subcommittee or Congress 
to be involved to help you locate your people in other places, 
I hope you will turn to us because I hope I made it clear that 
I do not want to live through what we did last year, and I am 
sure you do not either.
    Ms. Nord. You can be assured of that, Senator.
    Senator Durbin. We learned from that experience, and we owe 
it to the American people, all of us in Congress and in the 
executive branch, to do a better job.

                     ADDITIONAL COMMITTEE QUESTIONS

    So the record will be open if my colleagues have questions 
that they might submit for your consideration. We have made a 
couple of requests of you here, and I thank you for joining us 
today.
    [The following questions were not asked at the hearing, but 
were submitted to the Commission for response subsequent to the 
hearing:]
                  Questions Submitted to Nancy A. Nord
            Questions Submitted to Senator Richard J. Durbin
                      new import safety initiative
    Question. How will this initiative change your stated goal for 
fiscal year 2008 for Import Surveillance, which was for staff to 
conduct port-of-entry surveillance for 1 product for which fire safety 
standards are in effect?
    With the funding increase from fiscal year 2008 and knowing of the 
limited goals listed in your fiscal year 2008 budget justification, 
will any of your fiscal year 2009 stated goals for import safety and 
interaction with China be able to be accelerated into this year?
    I know you are using XRF technology. Are there other functional 
technologies being considered for inspection?
    Answer. The 2008 stated goal for one port-of-entry surveillance for 
fire safety contemplated a focus on compliance with CPSC's new mattress 
flammability standard. That important initiative is underway. While the 
stated goals in the Consumer Product Safety Commission's (CPSC) 
Performance Budget and Operating Plan cannot be changed without a vote 
of the Commission (and the Commission currently lacks a quorum), the 
CPSC has been able to use the additional funds provided for fiscal year 
2008 to strengthen its import surveillance activities. A substantial 
portion of the new funds have been used to create the new Import 
Surveillance Division within the Office of Compliance. This new 
division includes, for the first time in CPSC history, personnel who 
work at the ports-of-entry on a full-time basis. The new division 
already has a staff of 11 employees, most of whom are new to the agency 
(although all have had significant prior experience in import safety). 
This increased presence at the ports is yielding a larger number of 
import samples to be evaluated for conformity with mandatory safety 
standards.
    CPSC staff is currently using our new XRF technology at the ports, 
and it has proven to be a very efficient and effective screening system 
in identifying products that may contain lead or be coated with lead 
paint. CPSC staff is exploring whether there are other functional 
technologies that could be used for inspection at the ports.
                     update on u.s.-china agreement
    Question. Last year, you announced an agreement between the United 
States and China on lead paint and consumer product safety.
    Can you give me an update on any progress? Do you believe that 
you'll soon be signing a specific follow up agreement to the framework 
agreement you announced last year?
    What do you see as the tangible benefits of finishing a formal 
agreement?
    Have you observed improvements in China's capacity and willingness 
to perform compliance and enforcement activities regarding product 
safety?
    What outreach has been conducted as a result of the U.S.-China 
agreement?
    Do you expect any such agreements with other countries?
    Answer. The work plans that the CPSC agreed to at the U.S.-Sino 
Consumer Product Safety Summit held in September 2007 were outcomes of 
our Memorandum of Understanding (MOU) with the Peoples' Republic of 
China (PRC) which established the framework for cooperation and 
outreach. The work plans called for cooperative work in four product 
categories: toys, lighters, electrical products, and fireworks. 
Technical experts are now working on exchanges of standards 
information, training for product testing, and sharing information on 
best practices in those four product categories.
    Since September, CPSC staff has met eight times, either in person 
or via video conference, with staff of China's General Administration 
for Quality Supervision, Inspection and Quarantine (AQSIQ) to review 
recalls and safety issues.
    The CPSC has begun a Chinese language service on our web site, 
where Chinese suppliers and government officials can get updated 
compliance information in Chinese. We are translating many product 
safety requirements and posting them on the web site, as well as 
providing summary descriptions in Chinese that link to full texts in 
English.
    Regarding Chinese cooperation, first it should be stressed that the 
CPSC does not rely on the Chinese government to enforce U.S. 
requirements. The CPSC enforces our requirements with American 
importers. That said, the PRC offered to use its export quality control 
system to target Chinese-made products that would be recalled if they 
entered the United States. The CPSC singled out lead paint on toys as a 
problem and the Chinese agreed to take that on.
  --The PRC says it has inspected thousands of factories and revoked 
        hundreds of export licenses for lead paint violations. As we 
        send them case reports, they now send us the results of their 
        investigations, and their reports frequently cite specific 
        remedial action that they have required the Chinese factory to 
        take.
  --The Chinese government has stated that no export permit is granted 
        for a painted toy unless the paint on the toy came from an 
        approved lead-free suppliers list.
  --The PRC has sponsored numerous high-profile standards and 
        compliance seminars aimed at getting the product safety message 
        to Chinese manufacturers. The CPSC participated in one of these 
        in November.
  --CPSC staff has noticed that the Chinese government shows an 
        increased interest in promoting industry best practices for 
        compliance assurance, compared to simply increasing its factory 
        inspections.
    Nothing the Chinese government promises and no amount of export 
control inspection can take the place of major systemic changes in 
Chinese manufacturing. CPSC staff is working with Chinese suppliers to 
hasten that change, but it is the U.S. importer that must ensure its 
product complies with U.S. laws.
    At CPSC's invitation, product safety officials from the European 
Union will join us in China during September for a joint outreach 
program directed to consumer product exporters. The Chinese government 
has enthusiastically endorsed this project and has agreed to facilitate 
access to the appropriate audiences for the compliance outreach 
seminars.
    Because we have found the formal work plan to be an effective 
mechanism for articulating priorities and specific outcomes, CPSC staff 
will focus on revising the work plan to capture new priorities rather 
than creating new formal agreements. New work plan priorities will be 
the subject of discussions with the Chinese over the coming months. 
These will be formalized during the U.S.-Sino Safety Summit now being 
planned for 2009.
    With regard to other nations, CPSC staff is negotiating a work plan 
under a new 2008 MOU with Vietnam which is designed to maximize success 
in priority product areas, with textiles as a strong candidate for a 
product area. The CPSC will do a training outreach in Vietnam this 
year, as well as a joint training outreach in China with the European 
Union.
                         new improvements in it
    Question. You plan to spend a significant amount of the fiscal year 
2008 funding we provided ($4.3 million) on information technology 
enhancements.
    What are the improvements you are making and what practical results 
will be achieved?
    How will these upgrades improve the quality of injury and hazard 
data received by CPSC and the targeting of inspection and compliance 
activities?
    Answer. With the additional funding provided in fiscal year 2008, 
the CPSC has established both a long-sought permanent capital fund to 
be used to replace aging and outdated equipment on a systematic basis 
as well as a second fund to support development of more advanced 
electronic applications. Additionally, a one-time expenditure of $2.3 
million is allowing the agency to replace its resource management 
information system which is so outdated that vendor support is being 
withdrawn.
    These IT improvements are essential to the agency's new Import 
Safety Initiative and Early Warning System Initiative (EWS). These 
improvements lay the foundation for improved electronic data exchanges 
with Customs and Border Patrol's databases and enhance our capabilities 
to identify, track and stop hazardous products from entering the United 
States. Development and implementation of our EWS will enhance our 
current hazard identification systems. The goal of the EWS is to 
systematically identify and respond to hazards, quickly and 
effectively. Through an enhanced identification system, the agency will 
be better able to quickly detect and initiate action on emerging 
product-associated hazards.
                       status of cpsc laboratory
    Question. I was pleased to have been helpful in discussions with 
the General Services Administration about securing a proper laboratory 
for testing, investigations, and other staffing purposes. I'm glad with 
the funding we provided, that CPSC will be able to move staff to the 
laboratory a year earlier than expected.
    What is the latest on the laboratory move and expected timetable?
    What are the most significant improvements in performance you'll be 
able to demonstrate as a result of moving to the new laboratory?
    Answer. The General Services Administration (GSA) is currently 
working with those who made offers in the Best and Final Offer stage of 
the process. GSA has estimated a July/August completion of this stage 
of the project. We expect a lease award to be made in early fiscal year 
2009, with the occupancy date dependent on build-out requirements.
    The new facility will improve the efficiency of CPSC's technical 
and testing operations by allowing the CPSC to consolidate technical 
staff currently located at our headquarters in Bethesda and at our 
laboratory in Gaithersburg, Maryland, in one location and to expand 
testing and evaluation capacity in support of our Import Surveillance 
Initiative. The new laboratory will allow for a more efficient use of 
space through the proper integration of offices and laboratories and is 
expected to reduce the time currently required to set-up and conduct 
various tests. The new laboratory will be designed to be more flexible 
and will permit CPSC staff to adapt the layout to future changes in 
operational requirements.
    Plans also include the design and construction of a Human Factors 
laboratory within the new facility. This laboratory will provide the 
CPSC with the capability to perform studies of children's and adults' 
interaction with various consumer products such as toys.
                  what else will cpsc study this year?
    Question. Yesterday, I cosponsored legislation to ban bisphenol A 
(BPA), a chemical found in plastics, from all products made for infants 
and children up to age 7. I understand that in 2002, the CPSC studied 
rattles, teething rings, and pacifiers and found BPA in 5 of 13 plastic 
samples.
    Given the growing evidence from new studies that have linked the 
chemical to cancer, diabetes, behavioral disorders and productive 
problems, do you now plan to study BPA further, particularly with 
regard to toys and other items children may put into their mouths?
    With the increased resources that you now have, what other issues 
do you expect to begin to focus on and study?
    Nanotechnology?
    Answer. Bisphenol A (BPA) is a chemical used in the manufacture of 
polycarbonate plastics and epoxy resins. The greatest potential for 
human exposure to BPA is from food contact items. The recent in-depth 
peer review conducted by the National Toxicology Program (NTP) Center 
for the Evaluation of Risk to Human Reproduction (CERHR) stated that 
diet accounts for the vast majority, 99 percent, of human exposure. If 
BPA migrates out of a food contact surface into food, it is considered 
an unintentional food additive and would be under the jurisdiction and 
expertise of the Food and Drug Administration (FDA).
    Polycarbonate is used in consumer products where there is a need 
for a very hard, clear, unbreakable and sturdy plastic. Polycarbonate 
is used in helmets, pacifier shields, protective gear such as goggles 
and shin guards, as well as other products, that fall under the 
jurisdiction of the CPSC.
    Polycarbonate is used in some pacifier shields (that prevent the 
nipple from being swallowed) so that when a child falls, the shield 
does not shatter, breaking into small parts and exposing the child to a 
possible choking or laceration injury. Any potential exposure from this 
product would result from mouthing the shield. In 2000 and 2001, CPSC 
staff conducted a behavioral observation study on mouthing related to 
the agency's investigation of exposure to diisononyl phthalates; the 
results of this study are instructive with regard to BPA. In the 
behavioral observation study, trained observers monitored the behavior 
of 169 children between the ages of 3 and 36 months. The study found 
that the daily mouthing times of children's toys and related products 
were much lower than expected. Based on these findings, the potential 
exposure from the pacifier shield would be negligible. As with adults, 
the preponderant exposure route for children would be through food.
    There would be no exposure to BPA expected from compact disks, 
electronics, helmets, goggles, other protective gear, and related 
consumer products. It should be noted that polycarbonate plays a very 
important role in its use in helmets and other protective gear, 
preventing children from receiving serious head injuries, eye injuries 
or other bodily injuries while engaging in sports and play.
    With respect to nanotechnology, CPSC staff is actively 
participating in a number of interagency initiatives or initiatives by 
other groups addressing the production, use, and potential health 
effects and safety of nanomaterials. These groups include: Nanoscale 
Science, Engineering and Technology (NSET) subcommittee of the National 
Science and Technology Council (NSTC) and its working groups such as 
the Nanotechnology Environmental and Health Implications (NEHI); 
American National Standards Institute (ANSI); International Life 
Sciences Institute (ILSI); National Toxicology Program (NTP); ASTM 
International (ASTM); and International Council on Nanotechnology 
(ICON).
    Participation in these groups and activities fosters communication 
between CPSC staff and the staff of various federal agencies and other 
groups. CPSC staff learns about health effects data and the best 
available practices for the regulation of nanomaterials. These 
interactions also promote responsible research and development of 
nanomaterials that can be used in consumer products.
    A contractor for the CPSC has completed a literature review of 
nanomaterials that may be used as flame-retardant (FR) chemicals. The 
report focuses on the physico-chemical properties of the FR chemicals 
and also reviews potential exposure and health effects of these 
compounds.
    CPSC staff has met with staff at NIST, EPA, FDA, and NIOSH to 
identify areas of mutual interest and collaboration. For example, CPSC 
staff has signed a memorandum of understanding (MOU) with NIST to 
review nano-flame retardants in various products. CPSC staff is also 
developing an interagency agreement (IAG) with the National Institute 
for Occupational Safety and Health (NIOSH) to conduct laboratory 
investigations of emissions of nanomaterials from selected consumer 
products.
    The increased resources for the CPSC are primarily devoted to three 
purposes in fiscal year 2008: new laboratory facilities, information 
technology modernization and additional field staff. However, CPSC 
staff will continue chemical-related activities focusing on lead in 
consumer products; nanotechnology; strong sensitizers; ozone-generating 
air cleaners; the use of flame retardant chemicals in upholstered 
furniture and mattresses; implementation of the Globally Harmonized 
System (GHS) for Classification and Labeling; and participation in 
interagency and international workgroups and committees. Additionally, 
the staff has begun to investigate phthalate substitutes.
    In 2009 all of these current activities are expected to continue. 
In addition, the staff plans to begin new projects looking at potential 
health effects on issues that may include the use of aerosol products 
(such as leather waterproofing sprays) and the presence of stabilizers 
in plastics.
    Question. Is CPSC Collecting Data on Fire-Related Injuries and 
Deaths?
    Your fiscal year 2008 budget justification indicates that you began 
an evaluation of a new system for collecting data on fire-related 
injuries and deaths but that additional data collection and 
investigation for this new system was being suspended pending a review, 
resulting in temporary cost savings.
    Where does this effort stand today? Have you resumed collection and 
analysis of fire death data and will you continue to collect and 
evaluate fire injury data?
    Answer. Two preliminary studies, one on fire fatalities and the 
other on fire injuries, have been completed. The preliminary study 
results are currently undergoing agency review, evaluation and 
clearance procedures; further work is pending completion of those 
procedures. The CPSC continues to utilize data provided by the U.S. 
Fire Administration's National Fire Incident Reporting System and the 
National Fire Protection Association's Survey of Fire Departments to 
generate fire loss estimates (fires, death, injuries, and property loss 
damage) for products within CPSC's jurisdiction.
         data analysis--new early warning system pilot program
    Question. I understand that with the additional funds provided last 
year, you will implement a pilot program; an early warning system that 
will facilitate rapid identification of and action on emerging product-
associated hazards.
    How will this program work and what products will you focus on?
    Answer. The goal of the Early Warning System (EWS) is to enhance 
CPSC's current hazard identification systems by decreasing the time 
required to identify and initiate action on emerging product-associated 
hazards, and increasing accountability for decisions.
    In November 2007, CPSC staff initiated an EWS pilot program that 
targets products found in the sleeping environments of children--cribs, 
bassinets, and play yards (play pens). The agency's current focus is on 
mechanical and structural hazards that have the potential to entrap or 
otherwise fatally injure a child.
    A multidisciplinary team of subject matter experts meets weekly to 
evaluate and characterize the hazard scenarios and failure modes of 
product-associated incidents received during the previous week. An 
electronic database has been developed to capture these hazard 
scenarios, failure modes, and the investigative status.
    The automated system that is being developed will include the 
ability to: consolidate incident information from CPSC's many databases 
into one incident record, associate records that have like incident 
scenarios, identify hazard patterns and trends, apply a set of decision 
rules based on specific hazard characteristics and frequency of 
occurrence, and assign decision rule-based outcomes.
    The next stage in the development of our EWS, currently underway, 
is proof of concept. Concepts that are developed to automate the 
program requirements identified in the pilot program will be tested to 
ensure that system outputs meet the needs of system users and satisfy 
the project objective.
        why are cpsc goals for customer satisfaction decreasing?
    Question. Your fiscal year 2009 budget justification lists annual 
goals for customer satisfaction. Categories include, but are not 
limited to: responding to voicemail messages by the next business day; 
processing incident reports within 8 working hours; and mailing 
incident information for verification to consumers within 2 business 
days. In almost every category listed, your goals for 2008 and 2009 are 
lower than your actual rates for years 2004 through 2007.
    Why is that?
    Answer. The staff of the National Injury Information Clearinghouse 
(NIIC) was reduced over the last several years from six full time 
technical information specialists to the current staff level of three 
full time technical information specialists. As the agency continues to 
hire more staff as a result of increased appropriations, the number of 
staff resources devoted to the NIIC will increase, and pending the 
restoration of a quorum, the Commission will be reassessing these 
performance goals when developing the agency's fiscal year 2009 
operating plan.
                          all-terrain vehicles
    Question. I understand that you've collected reports on fatal 
crashes.
    Have you recorded that information in your database so it can be 
studied?
    Have you performed any tests on ATVs to see whether the companies 
are abiding by agreements on lateral (side) stability?
    ATVs used to be mostly three-wheeled vehicles. Moving to more 
stable, four-wheel models was an improvement, but a side effect was to 
shift the safety debate to rider behavior and away from ATV design.
    Have you challenged manufacturers on the design of four-wheel ATVs 
or done any meaningful stability testing of four-wheel ATVs in the past 
decade?
    Are most of these ATVs coming from China?
    Now that you are hiring more staff, will this be an area of focus?
    Answer. CPSC staff collects information on fatalities associated 
with the use of all-terrain vehicles (ATVs) and records that 
information in a CPSC ATV database (ATVD) so that the information can 
be retrieved, reviewed, and analyzed. The ATVD is available to the 
public on request. The fatality data are gathered from a variety of 
sources, including news clips; reports submitted to CPSC staff from 
medical examiners and coroners; consumer reports received via telephone 
or the Internet; and death certificates received from state and city 
vital registries.
    ATV fatalities generally are assigned for in-depth investigation by 
CPSC Field Operations staff, who attempt to gather any available 
information about the:
  --incident (date, location, number of deceased persons, a description 
        of the circumstances surrounding the incident and how the 
        incident occurred, number of riders on the ATV when the 
        incident occurred);
  --decedent (date of death, age, gender, helmet use, cause of death);
  --driver (age, gender, height, weight, alcohol use at time of 
        incident, drug use at time of incident, how the driver learned 
        to operate an ATV);
  --ATV (type, manufacturer, brand, model, and engine size);
  --environment (type of terrain being traveled at the time of the 
        incident, type of road being traveled at the time of the 
        incident); and
  --hazard pattern (e.g., did the ATV overturn? Did the ATV land on the 
        victim?).
    CPSC staff uses these fatality data in preparing its annual report 
of ATV-related deaths and injuries, in special studies requested by the 
Commission, in support of education initiatives by CPSC's Office of 
Public Affairs, and in support of voluntary standard and rulemaking 
activities.
    In August and September 2007, Office of Compliance staff requested 
lateral stability values for all current ATV models from all of the 
firms with Letters of Understanding (LOUs) with the CPSC. All reported 
lateral stability values met the requirements that were agreed to when 
the consent decrees were in effect.
    Currently, CPSC Engineering Sciences (ES) staff is examining the 
current generation of ATVs to become familiar with the static and 
dynamic testing of ATVs using the latest available technologies. As a 
part of this effort, ES staff recently tested nine youth ATVs at the 
U.S. Army Automotive Test Center in Aberdeen, Maryland. This testing 
consisted of gathering baseline measurements of the vehicles' static 
stability and preliminary measurements of the vehicles' dynamic 
performance. In addition, CPSC staff has been developing the capability 
to perform dynamic testing of ATVs, has been consulting with vehicle 
dynamic experts at Aberdeen, plans to test adult ATVs in fiscal years 
2008 and 2009, and has been developing a robotic steering system to 
test ATV stability under a variety of operational conditions, some of 
which would be too dangerous to perform with a test operator.
    In the time since the consent decrees, vehicle technology has 
evolved in terms of brake systems, suspension systems, and engine 
horsepower. CPSC staff believes that the exploration of a lateral 
stability requirement for ATVs, while potentially very useful, is an 
exceedingly complex task. This is because ATVs are rider-interactive 
vehicles used in many types of off-road terrains. The effort to address 
lateral stability issues requires extensive test and evaluation with 
the cooperation of CPSC staff, industry and other private sector 
entities.
    With regard to ATVs imported from China, a recently-released trade 
press report indicates that for 2007 about 42 percent of the ATVs sold 
in the United States were from ``nontraditional'' companies. Nearly all 
of these units were from Chinese companies. A report, with a chart 
showing Chinese ATVs as a proportion of the ``nontraditional'' ATVs 
sold in the United States for the years 1997 through 2007, can be found 
at: http://www.dealernews.com/dealernews/article/
articleDetail.jsp?id=512838&searchString=nontraditi.
    CPSC staff intends to continue its ATV rulemaking and other 
activities in 2008 and 2009, as directed by the Commission. Other 
activities include continued testing of ATVs with the goal of better 
understanding vehicle stability; information and education activities 
(see ATVsafety.gov); completion of the next annual report of ATV-
related deaths and injuries; and conducting focus groups to address the 
issue of maximum speed for youth ATVs.
                      new pool and spa safety act
    Question. Your budget justification indicates that this year, you 
will begin an education program associated with the Pool and Spa Safety 
Act, enacted last year.
    What specific activities will you undertake?
    Answer. On May 21, 2008, the CPSC launched its 2008 media and 
education campaign on pool safety and drowning prevention by hosting a 
pre-Memorial Day Weekend news conference. CPSC's news conference and 
news release focused on new death and injury data, building layers of 
protection in and around the pool and spa, the importance of constant 
supervision, and the requirements for public pool and spa owners/
operators under the new federal law.
    The news conference, the issuance of a video news release, and 
proactive communication with the media, resulted in: a segment on ``The 
Today Show'', a news reader on ``Good Morning America'', citation of 
our data on ``CBS Evening News'' reader, an ABCNews.com story on a CPSC 
employee who lost her son in a pool drowning, and stories on ``CBS 
Radio'', ``CNN Radio'', ``Telemundo'', Washingtonpost.com, the 
Associated Press wire, and in Parenting Magazine. Current data 
collected by the CPSC shows more than 25 million TV viewers and radio 
listeners were reached.
    In addition, the CPSC is working with two respected companies in 
the Washington, DC area to disseminate nationally and locally, our TV 
and Radio Public Service Announcement (PSA) on pool safety, which is 
entitled ``Quickly and Quietly.''
    The CPSC, in partnership with Safe Kids USA and the American Red 
Cross, also produced a safety poster on drowning prevention that was 
specifically designed for our 5,300 Neighborhood Safety Network 
members, who provide safety information to disadvantaged families.
    The agency continues to provide consumers, pool owners, pool 
operators and others with free copies of our ``Guidelines for 
Entrapment Hazards: Making Pools and Spas Safer'' and ``Safety Barrier 
Guidelines for Home Pools'' publications.
    During the summertime, the CPSC will work closely with Safe Kids 
USA to respond to news reports of child drownings and will provide 
critically important safety information and PSAs to media in the 
affected community.
    The CPSC is working hard to educate families on pool and spa safety 
this year and, pending the availability of appropriations, is preparing 
to carry out a significantly expanded information and education 
campaign in fiscal year 2009. This effort, combined with our commitment 
to effectively implement the new Pool and Spa Safety Act, is aimed at 
reducing the tragic number of child drownings which occur each year.
                            yo-yo water ball
    Question. In 2003, CPSC announced the results of an investigation 
into the ``Yo-Yo Water Ball'', a plastic toy with a stretchy cord, for 
which CPSC had received 186 reports of incidents in which the toy's 
cord wrapped around a child's neck. CPSC determined that there was a 
low but potential risk of strangulation and that the toy did not meet 
the standards for a recall. I understand that as of mid-December 2007, 
CPSC has received more than 400 injury reports related to this toy. And 
the State of New Jersey has now banned the sale of Yo-Yo Water Balls.
    Is CPSC considering taking any action with regard to this dangerous 
product?
    Answer. The CPSC has not received 400 injury reports related to 
this toy. Incident reports provided to the CPSC do not necessarily 
involve an injury. For example, many of the incident reports regarding 
yo-yo water balls were concerns about odors, leaking or possible 
flammability. The majority of these reports were received before the 
CPSC issued a public advisory on the product on September 24, 2003. 
Since that time, incident reports have dropped precipitously. In 
calendar year 2006 the CPSC received 10 incident reports, four of which 
were complaints about the product's odor.
    When CPSC's professional staff investigated this product in 2003, 
they decided not to recommend that the Commission ban yo-yo water 
balls. Staff did not believe that the product met the banning 
requirements under section 15 of the Federal Hazardous Substances Act. 
Subsequently, the CPSC worked with ASTM International in their 
development of a voluntary safety standard for yo-yo water balls. That 
standard was published in the March 2007 version of ASTM F963.
                              cpsc quorum
    Question. CPSC's quorum expired in early February. The CPSC 
Reauthorization, in conference negotiations right now, and which may be 
completed in May, would temporarily permit two members of the 
Commission, if they are not affiliated with the same political party, 
to constitute a quorum for the transaction of business.
    What rulemakings and other items requiring a vote of the Commission 
do you foresee this year?
    What items are pending right now and ready for a vote?
    Answer. The Commission's official Regulatory Agenda sets forth the 
status of all CPSC rulemakings currently underway. A copy of the 
current Regulatory Agenda is attached. If a CPSC reauthorization bill 
is enacted into law that reflects the language currently being 
considered by the Senate/House conference committee, the Regulatory 
Agenda will have to be very substantially revised to reflect 
redeployment of Commission personnel resources to address new statutory 
mandates. In that case, during the remainder of calendar year 2008, the 
Commission may take official action on project changes to the fiscal 
year 2008 and 2009 Operating Plans and the CPSC fiscal year 2009 budget 
submission.

                                            AGENCY RULE LIST--SPRING 2008--CONSUMER PRODUCT SAFETY COMMISSION
--------------------------------------------------------------------------------------------------------------------------------------------------------
               Agency                  Agenda Stage of Rulemaking                                Title                                        RIN
--------------------------------------------------------------------------------------------------------------------------------------------------------
CPSC................................  Proposed Rule Stage........  Flammability Standard for Upholstered Furniture..................  3041-AB35
CPSC................................  Proposed Rule Stage........  Possible Revocation or Amendment of Standard for the Flammability  3041-AC27
                                                                    of Mattresses and Mattress Pads (Cigarette Ignition).
CPSC................................  Proposed Rule Stage........  All-Terrain Vehicles.............................................  3041-AC28
CPSC................................  Long-Term Actions..........  Amendment of Safety Regulations for Cribs........................  3041-AB67
CPSC................................  Long-Term Actions..........  Portable Bed Rails...............................................  3041-AB91
CPSC................................  Long-Term Actions..........  Safety Standard for Baby Bath Seats..............................  3041-AC03
CPSC................................  Long-Term Actions..........  Petition CP 03-1/HP 03-1 Requesting a Standard for Bunk Bed        3041-AC10
                                                                    Corner Posts.
CPSC................................  Long-Term Actions..........  Petition CP 04-1/HP 04-1 Requesting Mandatory Fire Safety          3041-AC22
                                                                    Standards for Candles and Candle Accessories.
CPSC................................  Long-Term Actions..........  Mandatory Safety Standard for Cigarette Lighters.................  3041-AC25
CPSC................................  Long-Term Actions..........  Proposed Standard To Address Open-Flame Ignition of Bedclothes...  3041-AC26
CPSC................................  Long-Term Actions..........  Regulatory Options for Infant Pillows............................  3041-AC30
CPSC................................  Long-Term Actions..........  Regulatory Options for Table Saws................................  3041-AC31
CPSC................................  Long-Term Actions..........  Fireworks Devices................................................  3041-AC35
CPSC................................  Long-Term Actions..........  Portable Generators..............................................  3041-AC36
CPSC................................  Long-Term Actions..........  Civil Penalty Factors............................................  3041-AC40
CPSC................................  Long-Term Actions..........  Regulatory Options for Lead Toy Jewelry..........................  3041-AC41
CPSC................................  Completed Actions..........  Amendment of the Standard for the Flammability of Clothing Tex-    3041-AB68
                                                                    tiles.
--------------------------------------------------------------------------------------------------------------------------------------------------------

                               view rule
    CPSC     RIN: 3041-AB35 Publication ID: Spring 2008
    Title: Flammability Standard for Upholstered Furniture
    Abstract: On October 23, 2003, the Commission issued an ANPRM to 
expand the scope of the ongoing upholstered furniture flammability 
proceeding to include both cigarette and small open flame-ignited 
fires. The staff developed a draft standard addressing both cigarette 
and small open flame ignition, and held public meetings in 2004 and 
2005 to present and discuss the draft. In January, 2006, the staff sent 
a briefing package containing a revised draft standard and describing 
regulatory options to the Commission and provided follow-up status 
reports on various technical research efforts in November 2006 and 
December 2006. The staff forwarded another options package to the 
Commission in November 2007. The Commission voted to propose a rule 
based on the 2007 draft standard. The Commission's proposed standard 
would not require FR chemicals in fabrics or fillings.
    Agency: Consumer Product Safety Commission (CPSC)
    Priority: Economically Significant
    RIN Status: Previously published in the Unified Agenda
    Agenda Stage of Rulemaking: Proposed Rule Stage
    Major: Yes
    Unfunded Mandates: No
    CFR Citation: 16 CFR 1640 (To search for a specific CFR, visit the 
Code of Federal Regulations.)
    Legal Authority: 15 USC 1193, Flammable Fabrics Act; 5 USC 801
    Legal Deadline: None

                                TIMETABLE
------------------------------------------------------------------------
              Action                       Date             FR Cite
------------------------------------------------------------------------
ANPRM.............................  06/15/1994.......  59 FR 30735
Commission Hearing May 5 & 6, 1998  03/17/1998.......  63 FR 13017
 on Possible Toxicity of Flame
 Retardant Chemi-  cals.
Meeting Notice....................  03/20/2002.......  67 FR 12916
Notice of September 24 Public       08/27/2003.......  68 FR 51564
 Meeting.
ANPRM.............................  10/23/2003.......  68 FR 60629
ANPRM Comment Period End..........  12/22/2003.......  .................
Staff Held Public Meeting.........  10/28/2004.......  .................
Staff Held Public Meeting.........  05/18/2005.......  .................
Staff Sends Status Report to        01/31/2006.......  .................
 Commission.
Staff Sends Status Report to        11/03/2006.......  .................
 Commission.
Staff Sends Status Report to        12/28/2006.......  .................
 Commission.
Staff Sends Options Package to      12/22/2007.......  .................
 Commission.
Commission Votes to Direct Staff    12/27/2007.......  .................
 to Prepare Draft NPRM.
Staff Sends Draft NPRM to           01/22/2008.......  .................
 Commission.
Commission Decision to Publish      02/01/2008.......  .................
 NPRM.
NPRM..............................  03/04/2008.......  73 FR 11702
NPRM Comment Period Ends..........  05/19/2008.......  .................
------------------------------------------------------------------------

    Regulatory Flexibility Analysis Required: Undetermined
    Government Levels Affected: Undetermined
    Federalism: Undetermined
    Included in the Regulatory Plan: Yes
    RIN Data Printed in the FR: No
    Agency Contact: Dale R. Ray, Project Manager, Consumer Product 
Safety Commission, Directorate for Economic Analysis, 4330 East-West 
Highway, Bethesda, MD 20814-4408. Phone: 301 504-7704. Email: 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0d697f6c744d6e7d7e6e236a627b23">[email&#160;protected]</a>
                               view rule
    CPSC     RIN: 3041-AC27 Publication ID: Spring 2008
    Title: Possible Revocation or Amendment of Standard for the 
Flammability of Mattresses and Mattress Pads (Cigarette Ignition)
    Abstract: The Commission published an advance notice of proposed 
rulemaking (ANPRM) in the Federal Register on June 23, 2005, requesting 
comments on a rulemaking proceeding that could result in revoking or 
amending its existing flammability standard that includes a test for 
cigarette ignition of mattresses and mattress pads (16 CFR part 1632). 
On January 13, 2005, the Commission issued a proposed flammability 
standard for mattresses and mattress and foundation sets that 
prescribes an open flame ignition test. Some commenters to that 
rulemaking stated that they believe that once the new mattress standard 
is in effect the cigarette ignition test currently required in 16 CFR 
1632 will not be necessary and conducting both tests will be burdensome 
for industry. The Commission issued this ANPRM to begin consideration 
of whether the existing mattress standard should be revoked or amended. 
The staff is analyzing the public comments. A research project 
examining the criteria for self-sustained smoldering began in late 
2006.
    Agency: Consumer Product Safety Commission (CPSC)
    Priority: Substantive, Nonsignificant
    RIN Status: Previously published in the Unified Agenda
    Agenda Stage of Rulemaking: Proposed Rule Stage
    Major: Undetermined
    Unfunded Mandates: Undetermined
    CFR Citation: 16 CFR 1632 (To search for a specific CFR, visit the 
Code of Federal Regulations.)
    Legal Authority: 15 USC 1193, Flammable Fabrics Act
    Legal Deadline: None

                                TIMETABLE
------------------------------------------------------------------------
              Action                       Date             FR Cite
------------------------------------------------------------------------
ANPRM.............................  06/23/2005.......  70 FR 36357
ANPRM Comment Period End..........  08/22/2005.......  .................
Research Project Begins...........  09/30/2006.......  .................
Research Project Completed........  09/00/2008.......  .................
Staff Sends Briefing Package to     ( \1\ )..........  .................
 Commission.
------------------------------------------------------------------------
\1\ To Be Determined.

    Regulatory Flexibility Analysis Required: Undetermined
    Government Levels Affected: Undetermined
    Federalism: Undetermined
    Included in the Regulatory Plan: No
    RIN Data Printed in the FR: No
    Agency Contact: Patricia K. Adair, Project Manager, Consumer 
Product Safety Commission, Directorate for Engineering Sciences, 4330 
East-West Highway, Bethesda, MD 20814-4408. Phone: 301 504-7536. Email: 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="76061712171f0436150605155811190058">[email&#160;protected]</a>
                               view rule
    CPSC     RIN: 3041-AC28 Publication ID: Spring 2008
    Title: All-Terrain Vehicles
    Abstract: On October 14, 2005, the Commission published an advance 
notice of proposed rulemaking (ANPRM) concerning all terrain vehicles 
(ATVs). Issuance of the ANPRM initiated a rulemaking proceeding under 
the Consumer Product Safety Act (CPSA) and the Federal Hazardous 
Substances Act (FHSA). After reviewing the regulatory alternatives and 
the comments submitted in response to the ANPRM, the staff developed a 
May 31, 2006, briefing package recommending that the Commission issue a 
notice of proposed rulemaking (NPRM) that would formally ban three-
wheeled ATVs and mandate performance, training, labeling, and 
information requirements for four-wheeled ATVs. Other non-regulatory 
activities also were recommended, including the launch of an ATV safety 
Web site and a two-phase information and education effort. A Commission 
briefing was held on June 15, 2006. On July 12, 2006, the Commission 
voted 3-0 to approve publication of the draft NPRM with changes in the 
Federal Register. The NPRM was published on August 10, 2006, with a 
comment closing date of October 24, 2006. Seven ATV manufacturers and 
distributors requested a 60-day extension of the comment period. The 
Commission granted their request, and the comment closing date was 
extended to December 26, 2006. Staff is conducting research as directed 
by the Commission in its vote on July 12, 2006. On February 13, 2008, 
staff sent a report to the Commissioners summarizing the status of the 
staff's research activities.
    Agency: Consumer Product Safety Commission (CPSC)
    Priority: Substantive, Nonsignificant
    RIN Status: Previously published in the Unified Agenda
    Agenda Stage of Rulemaking: Proposed Rule Stage
    Major: Undetermined
    Unfunded Mandates: Undetermined
    CFR Citation: 16 CFR 1307; 16 CFR 1410; 16 CFR 1500; 16 CFR 1515 
(To search for a specific CFR, visit the Code of Federal Regulations.)
    Legal Authority: Consumer Product Safety Act; 15 USC 1261; Federal 
Hazardous Substances Act
    Legal Deadline: None

                                TIMETABLE
------------------------------------------------------------------------
              Action                       Date             FR Cite
------------------------------------------------------------------------
Staff sends draft ANPRM to          09/15/2005.......  .................
 Commission.
Commission Decision...............  10/05/2005.......  .................
ANPRM.............................  10/14/2005.......  70 FR 60031
ANPRM Comment Period Closes.......  12/13/2005.......  .................
Staff Sends Briefing Package to     05/31/2006.......  .................
 Commission.
Commission Decision...............  07/12/2006.......  .................
NPRM..............................  08/10/2006.......  71 FR 45903
NPRM Comment Period Extended......  10/20/2006.......  71 FR 61923
NPRM Comment Period Closes........  10/24/2006.......  .................
NPRM Comment Period Closes........  12/26/2006.......  .................
Staff Sends Status Report to        02/13/2008.......  .................
 Commissioners.
Staff Send Second Status Report to  06/00/2008.......  .................
 Commission.
Staff Sends Briefing Package to     ( \1\ )..........  .................
 Commission.
------------------------------------------------------------------------
\1\ To Be Determined.

    Regulatory Flexibility Analysis Required: Undetermined
    Government Levels Affected: Undetermined
    Federalism: Undetermined
    Included in the Regulatory Plan: No
    RIN Data Printed in the FR: No
    Agency Contact: Elizabeth W. Leland, Project Manager, Consumer 
Product Safety Commission, Directorate for Economic Analysis, 4330 
East-West Highway, Bethesda, MD 20814-4408. Phone: 301 504-7706. Email: 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2b4e474e474a454f6b485b5848054c445d05">[email&#160;protected]</a>
                               view rule
    CPSC     RIN: 3041-AB67 Publication ID: Spring 2008
    Title: Amendment of Safety Regulations for Cribs
    Abstract: On December 16, 1996, the Commission published an advance 
notice of proposed rulemaking (ANPRM) to begin a proceeding that could 
result in amendment of the safety regulations for full-size and non-
full-size cribs, 16 CFR parts 1508 and 1509. Among the regulatory 
alternatives under consideration is amendment of the regulations to add 
tests to assure that slats will not disengage from the side panels of 
cribs. The Commission began this proceeding after considering 
information about incidents in which crib slats disengaged from the 
side panels of cribs, creating a risk that children may become 
entrapped between the remaining slats or fall out of the crib. At the 
urging of CPSC staff, in April 1999, the voluntary standard for cribs 
designated, ``Specification for Full Size Baby Cribs (ASTM F1169-99),'' 
and published by ASTM International was revised to include performance 
requirements for crib slats. CPSC staff is currently assessing the 
adequacy of and conformance with the voluntary standard. Following this 
assessment, the staff will prepare a briefing package for Commission 
consideration as to whether to continue the rulemaking.
    Agency: Consumer Product Safety Commission (CPSC)
    Priority: Substantive, Nonsignificant
    RIN Status: Previously published in the Unified Agenda
    Agenda Stage of Rulemaking: Long-Term Actions
    Major: Undetermined
    Unfunded Mandates: No
    CFR Citation: 16 CFR 1508 to 1509 (To search for a specific CFR, 
visit the Code of Federal Regulations.)
    Legal Authority: 5 USC 553, Administrative Procedure Act; 15 USC 
1261, Federal Hazardous Substances Act
    Legal Deadline: None

                                TIMETABLE
------------------------------------------------------------------------
              Action                       Date             FR Cite
------------------------------------------------------------------------
Staff Recommended Revisions to      09/30/1996.......  .................
 Voluntary Standard.
ANPRM.............................  12/16/1996.......  61 FR 65996
ANPRM Comment Period End..........  02/14/1997.......  .................
Revisions to Voluntary Standard     04/10/1999.......  .................
 Approved.
Voluntary Certification Program     03/01/2000.......  .................
 Begins.
Staff Began Monitoring Adequacy of  03/27/2001.......  .................
 and Conformance with Revised
 Voluntary Standard.
Staff Completes Monitoring          ( \1\ )..........  .................
 Adequacy and Conformance.
Staff Sends Briefing Package to     ( \1\ )..........  .................
 Commission.
------------------------------------------------------------------------
\1\ To Be Determined.

    Regulatory Flexibility Analysis Required: Undetermined
    Government Levels Affected: Undetermined
    Federalism: Undetermined
    Included in the Regulatory Plan: No
    RIN Data Printed in the FR: No
    Agency Contact: Patricia L. Hackett, Project Manager, Consumer 
Product Safety Commission, Directorate for Engineering Sciences, 4330 
East-West Highway, Bethesda, MD 20814-4408. Phone: 301 504-7577. Email: 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="76061e17151d13020236150605155811190058">[email&#160;protected]</a>
                               view rule
    CPSC     RIN: 3041-AB91 Publication ID: Spring 2008
    Title: Portable Bed Rails
    Abstract: The Commission is considering whether certain portable 
bed rails present an unreasonable risk of injury that should be 
regulated. A portable bed rail is a device intended to be installed on 
an adult bed to prevent a child from falling out of the bed. Such bed 
rails may be constructed in a manner that allows children to become 
entrapped between the portable bed rail and the bed. This entrapment 
can result in serious injury or death. In October 2000, the Commission 
issued an advance notice of proposed rulemaking (ANPRM) addressing this 
issue. The ASTM International standard for bed rails has since been 
revised and staff is evaluating the adequacy of, and conformance to, 
the revised standard. Following this evaluation, the Commission staff 
will prepare a briefing package for Commission consideration as to 
whether to continue the rulemaking.
    Agency: Consumer Product Safety Commission (CPSC)
    Priority: Substantive, Nonsignificant
    RIN Status: Previously published in the Unified Agenda
    Agenda Stage of Rulemaking: Long-Term Actions
    Major: Undetermined
    Unfunded Mandates: No
    CFR Citation: Not Yet Determined (To search for a specific CFR, 
visit the Code of Federal Regulations.)
    Legal Authority: 15 USC 1261, Federal Hazardous Substances Act
    Legal Deadline: None

                                TIMETABLE
------------------------------------------------------------------------
              Action                       Date             FR Cite
------------------------------------------------------------------------
Staff Sent Briefing Package to      06/28/2000.......  .................
 Commission.
Commission Decision...............  09/21/2000.......  .................
ANPRM.............................  10/03/2000.......  65 FR 58968
ANPRM Comment Period End..........  12/04/2000.......  .................
Staff Sent Briefing Package to      10/01/2001.......  .................
 Commission.
Commission Decision...............  10/30/2001.......  .................
Staff Begins Evaluating             10/01/2005.......  .................
 Conformance to Voluntary Standard.
Staff Sends Briefing Package to     ( \1\ )..........  .................
 Commission.
------------------------------------------------------------------------
\1\ To Be Determined.

    Regulatory Flexibility Analysis Required: Undetermined
    Government Levels Affected: Undetermined
    Federalism: Undetermined
    Included in the Regulatory Plan: No
    RIN Data Printed in the FR: No
    Agency Contact: Patricia L. Hackett, Project Manager, Consumer 
Product Safety Commission, Directorate for Engineering Sciences, 4330 
East-West Highway, Bethesda, MD 20814-4408. Phone: 301 504-7577. Email: 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="92e2faf3f1f9f7e6e6d2f1e2e1f1bcf5fde4bc">[email&#160;protected]</a>
                               view rule
    CPSC     RIN: 3041-AC03 Publication ID: Spring 2008
    Title: Safety Standard for Baby Bath Seats
    Abstract: An advance notice of proposed rulemaking (ANPRM), 
published in the Federal Register on August 1, 2001, requested comments 
on a rulemaking proceeding that could result in a mandatory rule 
addressing baby bath seats. These are consumer products used to hold an 
infant in a bathtub while the child is being bathed. The staff briefed 
the Commission on July 28, 2003, and the Commission received oral 
comments from the public on the same date. The staff evaluated the 
comments received at the hearing and sent a briefing package to the 
Commission. In October of 2003, the Commission voted to direct the 
staff to prepare a notice of proposed rulemaking (NPRM) for the 
Commission's consideration. On December 29, 2003, the NPRM was 
published in the Federal Register. The comment period closed on March 
15, 2004. Since the NPRM, staff worked with ASTM International to 
revise the voluntary standard for bath seats (ASTM F1967). The standard 
was revised in 2004 and again in 2007. Staff is currently evaluating 
the adequacy of the revised standard. Following this evaluation, staff 
will prepare a briefing package for Commission consideration as to 
whether to continue the rulemaking.
    Agency: Consumer Product Safety Commission (CPSC)
    Priority: Substantive, Nonsignificant
    RIN Status: Previously published in the Unified Agenda
    Agenda Stage of Rulemaking: Long-Term Actions
    Major: Undetermined
    Unfunded Mandates: Undetermined
    CFR Citation: Not Yet Determined (To search for a specific CFR, 
visit the Code of Federal Regulations.)
    Legal Authority: 15 USC 1261, Federal Hazardous Substances Act
    Legal Deadline: None

                                TIMETABLE
------------------------------------------------------------------------
              Action                       Date             FR Cite
------------------------------------------------------------------------
ANPRM.............................  08/01/2001.......  66 FR 39692
ANPRM Comment Period End..........  10/01/2001.......  .................
Staff Sends Briefing Package to     05/08/2003.......  .................
 Commission.
Staff Briefed Commission..........  07/28/2003.......  .................
Hearing...........................  07/28/2003.......  .................
Commission Decision...............  10/16/2003.......  .................
NPRM..............................  12/29/2003.......  68 FR 74878
NPRM Comment Period End...........  03/15/2004.......  .................
Staff Begins Monitoring Progress    10/01/2005.......  .................
 of Voluntary Standard.
Staff Completes Monitoring          ( \1\ )..........  .................
 Progress of Voluntary Standard.
------------------------------------------------------------------------
\1\ To Be Determined.

    Regulatory Flexibility Analysis Required: Undetermined
    Government Levels Affected: None
    Federalism: Undetermined
    Included in the Regulatory Plan: No
    RIN Data Printed in the FR: No
    Related RINs: Related to 3041-AB93
    Agency Contact: Patricia L. Hackett, Project Manager, Consumer 
Product Safety Commission, Directorate for Engineering Sciences, 4330 
East-West Highway, Bethesda, MD 20814-4408. Phone: 301 504-7577. Email: 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="42322a23212927363602213231216c252d346c">[email&#160;protected]</a>
                               view rule
    CPSC     RIN: 3041-AC10 Publication ID: Spring 2008
    Title: Petition CP 03-1/HP 03-1 Requesting a Standard for Bunk Bed 
Corner Posts
    Abstract: A petition from the Danny Foundation requests that the 
Commission establish a standard to address an alleged hazard of 
strangulation posed by bunk bed corner posts. The petitioner asserts 
that due to the height of bunk beds, corner posts on bunk beds pose a 
substantial risk to children when the children's clothing, bedding, or 
other items become caught on the corner posts. On November 8, 2002, the 
Commission published a notice in the Federal Register to solicit 
comments on the petition from all interested persons. The comment 
period closed on January 7, 2003. On April 13, 2004, the staff sent a 
briefing package to the Commission on this issue. On July 30, 2004, the 
Commission voted to defer action on the petition while the staff 
continues to work with the ASTM International bunk bed subcommittee on 
this issue. A revised voluntary standard for bunk beds was published in 
October 2004 that incorporates warning language about hangings 
associated with bunk beds and attaching items to the bed. CPSC staff 
worked with the subcommittee to develop requirements to address 
strangulation hazards with vertical protrusions. A revised standard was 
approved on July 15, 2007. Staff is currently evaluating the adequacy 
of the revised standard.
    Agency: Consumer Product Safety Commission (CPSC)
    Priority: Substantive, Nonsignificant
    RIN Status: Previously published in the Unified Agenda
    Agenda Stage of Rulemaking: Long-Term Actions
    Major: Undetermined
    Unfunded Mandates: No
    CFR Citation: Not Yet Determined (To search for a specific CFR, 
visit the Code of Federal Regulations.)
    Legal Authority: 5 USC 553(e), Administrative Procedure Act; 15 USC 
1262(j), Federal Hazardous Substances Act; 15 USC 2058(i), Consumer 
Product Safety Act
    Legal Deadline: None

                                TIMETABLE
------------------------------------------------------------------------
              Action                       Date             FR Cite
------------------------------------------------------------------------
Petition Docketed.................  10/23/2002.......  .................
Notice............................  11/08/2002.......  67 FR 68107
Comment Period End................  01/07/2003.......  .................
Staff Sends Briefing Package to     04/13/2004.......  .................
 Commission.
Commission Votes To Defer Action..  07/30/2004.......  .................
Staff Sends Briefing Package to     ( \1\ )..........  .................
 Commission.
Staff Begins Evaluating             ( \1\ )..........  .................
 Conformance to Voluntary Standard.
------------------------------------------------------------------------
\1\ To Be Determined.

    Regulatory Flexibility Analysis Required: Undetermined
    Government Levels Affected: None
    Federalism: No
    Included in the Regulatory Plan: No
    RIN Data Printed in the FR: No
    Agency Contact: Susan Bathalon, Project Manager, Consumer Product 
Safety Commission, Directorate for Engineering Sciences, 4330 East-West 
Highway, Bethesda, MD 20814-4408. Phone: 301 504-7566. Email: 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f6859497829e979a9998b695868595d8919980d8">[email&#160;protected]</a>
                               view rule
    CPSC     RIN: 3041-AC22 Publication ID: Spring 2008
    Title: Petition CP 04-1/HP 04-1 Requesting Mandatory Fire Safety 
Standards for Candles and Candle Accessories
    Abstract: The National Association of State Fire Marshals requests 
that the Commission issue mandatory safety standards for candles and 
candle accessories such as candleholders. The request was docketed as a 
petition for rulemaking on March 10, 2004. A notice requesting comment 
on the petition was published in the Federal Register on April 6, 2004. 
The comment period closed on June 7, 2004. On July 10, 2006, CPSC staff 
sent a briefing package to the Commission for consideration and 
recommended that the Commission defer action on the petition. On July 
19, 2006, the Commission voted 3-0 to defer the petition and directed 
the staff to provide updates on the progress of voluntary standards 
activities. Staff provided a status report to the Commissioners on June 
6, 2007.
    Agency: Consumer Product Safety Commission (CPSC)
    Priority: Substantive, Nonsignificant
    RIN Status: Previously published in the Unified Agenda
    Agenda Stage of Rulemaking: Long-Term Actions
    Major: Undetermined
    Unfunded Mandates: Undetermined
    CFR Citation: Not Yet Determined (To search for a specific CFR, 
visit the Code of Federal Regulations.)
    Legal Authority: 5 USC 553(e), Administrative Procedure Act; 15 USC 
2051, Consumer Product Safety Act; 15 USC 1261, Federal Hazardous 
Substances Act
    Legal Deadline: None

                                TIMETABLE
------------------------------------------------------------------------
              Action                       Date             FR Cite
------------------------------------------------------------------------
Petition Docketed.................  03/10/2004.......  .................
Notice............................  04/06/2004.......  69 FR 18059
Comment Period End................  06/07/2004.......  .................
Staff Sends Briefing Package to     07/10/2006.......  .................
 Commission.
Commission Votes to Defer Action..  07/19/2006.......  .................
Staff Sends Update on Progress of   06/06/2007.......  .................
 Voluntary Standards Activities to
 Commissioners.
Staff Sends Briefing Package to     ( \1\ )..........  .................
 Commission.
------------------------------------------------------------------------
\1\ To Be Determined.

    Regulatory Flexibility Analysis Required: Undetermined
    Government Levels Affected: None
    Federalism: Undetermined
    Included in the Regulatory Plan: No
    RIN Data Printed in the FR: No
    Agency Contact:, Allyson Tenney, Project Manager, Consumer Product 
Safety Commission, Directorate for Engineering Sciences, 4330 East-West 
Highway, Bethesda, MD 20814-4408. Phone: 301 504-7567. Email: 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b4d5c0d1dadad1cdf4d7c4c7d79ad3dbc29a">[email&#160;protected]</a>
                               view rule
    CPSC     RIN: 3041-AC25 Publication ID: Spring 2008
    Title: Mandatory Safety Standard for Cigarette Lighters
    Abstract: In November 2001, a petition from the Lighter 
Association, Inc. requested that the Commission issue a rule to adopt 
an ASTM International voluntary safety standard for cigarette lighters. 
In November 2004, the Commission voted to grant the petition and 
initiate a rulemaking proceeding. An advance notice of proposed 
rulemaking (ANPRM) was published in April 2005 and the comment period 
closed on June 10, 2005. Staff completed monitoring conformance of 
lighters with the voluntary standard, and sent a status report to the 
Commission for consideration in October 2006. On January 23, 2008, 
staff provided a review of applicable law, decision factors, and 
pertinent information to assist the Commission in considering whether 
to formally rely upon the voluntary standard for cigarette lighters. 
The Commission did not agree on this approach.
    Agency: Consumer Product Safety Commission (CPSC)
    Priority: Substantive, Nonsignificant
    RIN Status: Previously published in the Unified Agenda
    Agenda Stage of Rulemaking: Long-Term Actions
    Major: Undetermined
    Unfunded Mandates: No
    CFR Citation: Not Yet Determined (To search for a specific CFR, 
visit the Code of Federal Regulations.)
    Legal Authority: 5 USC 553(e); Administrative Procedure Act; 15 USC 
2051; Consumer Product Safety Act
    Legal Deadline: None

                                TIMETABLE
------------------------------------------------------------------------
              Action                       Date             FR Cite
------------------------------------------------------------------------
Staff Sent Draft ANPRM to           03/25/2005.......  .................
 Commission.
Commission Decision...............  03/31/2005.......  .................
ANPRM.............................  04/11/2005.......  70 FR 18339
ANPRM Comment Period End..........  06/10/2005.......  .................
Staff Begins Monitoring of          10/01/2005.......  .................
 Conformance with Voluntary
 Standard.
Staff Completes Monitoring of       05/15/2006.......  .................
 Conformance with Voluntary
 Standard.
Staff Sent Status Report to         10/10/2006.......  .................
 Commission.
Staff Sent Briefing Package to      01/23/2008.......  .................
 Commission.
Commission Decision...............  02/01/2008.......  .................
Next Action Undetermined..........  ( \1\ )..........  .................
------------------------------------------------------------------------
\1\ To Be Determined.

    Regulatory Flexibility Analysis Required: Undetermined
    Government Levels Affected: Undetermined
    Federalism: Undetermined
    Included in the Regulatory Plan: No
    RIN Data Printed in the FR: No
    Agency Contact: Rohit Khanna, Project Manager, Consumer Product 
Safety Commission, Directorate for Engineering Sciences, 4330 East-West 
Highway, Bethesda, MD 20814-4408. Phone: 301 504-7546. Email: 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d9abb2b1b8b7b7b899baa9aabaf7beb6aff7">[email&#160;protected]</a>
                               view rule
    CPSC     RIN: 3041-AC26 Publication ID: Spring 2008
    Title: Proposed Standard To Address Open-Flame Ignition of 
Bedclothes
    Abstract: On January 13, 2005, the Commission published an advance 
notice of proposed rulemaking (ANPRM) to begin a proceeding for 
development of a flammability standard to address risks of death, 
injury, and property damage from fires associated with open-flame 
ignition of bedclothes. Bedclothes are a major contributor to mattress 
ignition. Commission staff reviewed research indicating that mattresses 
and bedclothes operate together as a system in fires involving 
mattresses. Research has suggested that improved flammability 
performance of some bedclothes can reduce the fire hazard. The 
Commission staff will review public comments received on the ANPRM and 
consider how information derived from implementation of the new open 
flame mattress standard impacts bedclothes flammability. Staff will 
prepare a decision package for Commission consideration.
    Agency: Consumer Product Safety Commission (CPSC)
    Priority: Economically Significant
    RIN Status: Previously published in the Unified Agenda
    Agenda Stage of Rulemaking: Long-Term Actions
    Major: Undetermined
    Unfunded Mandates: No
    CFR Citation: 16 CFR 1634 (To search for a specific CFR, visit the 
Code of Federal Regulations.)
    Legal Authority: 15 USC 1193; Flammable Fabrics Act; 5 USC 801
    Legal Deadline: None

                                TIMETABLE
------------------------------------------------------------------------
              Action                       Date             FR Cite
------------------------------------------------------------------------
ANPRM.............................  01/13/2005.......  70 FR 2514
ANPRM Comment Period End..........  03/14/2005.......  .................
Staff Sends Briefing Package to     ( \1\ )..........  .................
 Commission.
------------------------------------------------------------------------
\1\ To Be Determined.

    Regulatory Flexibility Analysis Required: Undetermined
    Government Levels Affected: Undetermined
    Federalism: Undetermined
    Included in the Regulatory Plan: No
    RIN Data Printed in the FR: No
    Agency Contact: Allyson Tenney, Project Manager, Consumer Product 
Safety Commission, Directorate for Engineering Sciences, 4330 East-West 
Highway, Bethesda, MD 20814-4408. Phone: 301 504-7567. Email: 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="620316070c0c071b22011211014c050d144c">[email&#160;protected]</a>
                               view rule
    CPSC     RIN: 3041-AC30 Publication ID: Spring 2008
    Title: Regulatory Options for Infant Pillows
    Abstract: On July 13, 2006, the Commission voted 3-0 to grant a 
petition requesting that the Commission amend the ban on infant pillows 
under 16 CFR 1500.18(a)(16)(i). The staff prepared a draft advance 
notice of proposed rulemaking (ANPRM) concerning infant pillows to 
initiate a rulemaking proceeding under the Federal Hazardous Substances 
Act (FHSA) to identify the product and the risk of injury associated 
with infant pillows, summarize regulatory alternatives, and invite 
comments from the public. On September 27, 2006, the Commission issued 
the ANPRM. Staff reviewed public comments and prepared an options 
briefing package for Commission consideration. On February 1, 2008, the 
Commission voted 2-0 to exempt certain nursing pillows from the ban on 
infant pillows and to terminate rulemaking.
    Agency: Consumer Product Safety Commission (CPSC)
    Priority: Substantive, Nonsignificant
    RIN Status: Previously published in the Unified Agenda
    Agenda Stage of Rulemaking: Long-Term Actions
    Major: Undetermined
    Unfunded Mandates: No
    CFR Citation: 16 CFR 1500.18(a)(16)(i)
    Legal Authority: 5 USC 553, Administrative Procedure Act; 15 USC 
1261, Federal Hazardous Substances Act
    Legal Deadline: None

                                TIMETABLE
------------------------------------------------------------------------
              Action                       Date             FR Cite
------------------------------------------------------------------------
Staff sends Draft ANPRM to          09/07/2006.......  .................
 Commission.
Commission Decision...............  09/14/2006.......  .................
ANPRM.............................  09/27/2006.......  71 FR 56418
ANPRM Comment Period Ends.........  11/27/2006.......  .................
Staff Sends Briefing Package to     01/24/2008.......  .................
 Commission.
Commission Decision...............  02/01/2008.......  .................
Staff Drafts FR Notice............  ( \1\ )..........  .................
------------------------------------------------------------------------
\1\ To Be Determined.

    Regulatory Flexibility Analysis Required: Undetermined
    Government Levels Affected: Undetermined
    Federalism: Undetermined
    Included in the Regulatory Plan: No
    RIN Data Printed in the FR: No
    Agency Contact: Suad Wanna-Nakamura, Ph.D., Project Manager, 
Consumer Product Safety Commission, Directorate for Health Sciences, 
4330 East-West Highway, Bethesda, MD 20814-4408. Phone: 301 504-7252. 
Email: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c3b0b4a2adada2eeada2a8a2aeb6b1a283a0b3b0a0eda4acb5ed">[email&#160;protected]</a>
                               view rule
    CPSC     RIN: 3041-AC31 Publication ID: Spring 2008
    Title: Regulatory Options for Table Saws
    Abstract: On July 11, 2006, the Commission voted 2-1 to grant a 
petition requesting that the Commission issue a rule prescribing 
performance standards for a system to reduce or prevent injuries from 
contacting the blade of a table saw. The Commission also directed the 
staff to prepare an advance notice of proposed rulemaking (ANPRM) 
initiating a rulemaking proceeding under the Consumer Product Safety 
Act (CPSA) to identify the product and the risk of injury associated 
with table saw blade contact injuries, summarize regulatory 
alternatives, and invite comments from the public. A draft advance 
notice of proposed rulemaking will be prepared for Commission 
consideration.
    Agency: Consumer Product Safety Commission (CPSC)
    Priority: Substantive, Nonsignificant
    RIN Status: Previously published in the Unified Agenda
    Agenda Stage of Rulemaking: Long-Term Actions
    Major: Undetermined
    Unfunded Mandates: No
    CFR Citation: Not Yet Determined (To search for a specific CFR, 
visit the Code of Federal Regulations.)
    Legal Authority: 5 USC 553(e), Administrative Procedure Act; 15 USC 
2051, Consumer Product Safety Act
    Legal Deadline: None

                                TIMETABLE
------------------------------------------------------------------------
              Action                       Date             FR Cite
------------------------------------------------------------------------
Staff Sends ANPRM to Commission...  ( \1\ )..........  .................
------------------------------------------------------------------------
\1\ To Be Determined.

    Regulatory Flexibility Analysis Required: Undetermined
    Government Levels Affected: Undetermined
    Federalism: Undetermined
    Included in the Regulatory Plan: No
    RIN Data Printed in the FR: No
    Agency Contact: Caroleene Paul, Project Manager, Consumer Product 
Safety Commission, Directorate for Engineering Sciences, 4330 East-West 
Highway, Bethesda, MD 20814-4408. Phone: 301 504-7540. Email: 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="91f2e1f0e4fdd1f2e1e2f2bff6fee7bf">[email&#160;protected]</a>
                               view rule
    CPSC     RIN: 3041-AC35 Publication ID: Spring 2008
    Title: Fireworks Devices
    Abstract: The staff prepared a draft advance notice of proposed 
rulemaking (ANPRM) concerning fireworks devices requesting comments on 
whether there is a need for the agency to update and strengthen its 
regulation of fireworks devices and sent it to the Commission for 
consideration on June 26, 2006. On June 30, 2006, the Commission voted 
3-0 to issue an advance notice of proposed rulemaking. The ANPRM was 
issued on July 12, 2006. The comment period on the ANPRM closed on 
September 11, 2006. Commission staff is evaluating comments received.
    Agency: Consumer Product Safety Commission (CPSC)
    Priority: Substantive, Nonsignificant
    RIN Status: Previously published in the Unified Agenda
    Agenda Stage of Rulemaking: Long-Term Actions
    Major: Undetermined
    Unfunded Mandates: Undetermined
    CFR Citation: 16 CFR 1500; 16 CFR 1507 (To search for a specific 
CFR, visit the Code of Federal Regulations.)
    Legal Authority: 15 USC 1261, Federal Hazardous Substances Act
    Legal Deadline: None

                                TIMETABLE
------------------------------------------------------------------------
              Action                       Date             FR Cite
------------------------------------------------------------------------
Staff sends draft ANPRM to          06/26/2006.......  .................
 Commission.
Commission Decision...............  06/30/2006.......  .................
ANPRM.............................  07/12/2006.......  71 FR 39249
Comment Period Closes.............  09/11/2006.......  .................
Staff Sends Briefing Package to     ( \1\ )..........  .................
 Commission.
------------------------------------------------------------------------
\1\ To Be Determined.

    Regulatory Flexibility Analysis Required: Undetermined
    Government Levels Affected: Undetermined
    Federalism: Undetermined
    Included in the Regulatory Plan: No
    RIN Data Printed in the FR: No
    Agency Contact:, James Joholske, Compliance Officer, Office of 
Compliance, Consumer Product Safety Commission, 4330 East-West Highway, 
Bethesda, MD 20814. Phone: 301 504-7527. Email: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4b21212423242738202e0b283b3828652c243d65">[email&#160;protected]</a>
                               view rule
    CPSC     RIN: 3041-AC36 Publication ID: Spring 2008
    Title: Portable Generators
    Abstract: On December 5, 2006, the Commission voted 2-0 to issue an 
advance notice of proposed rulemaking (ANPRM) under the Consumer 
Product Safety Act (CPSA) concerning portable generators. The ANPRM 
discusses regulatory options that could reduce portable generator-
related deaths and injuries, particularly those related to carbon 
monoxide poisoning. The ANPRM was published in the Federal Register on 
December 12, 2006. Staff reviewed public comments and is conducting 
technical activities. Staff awarded a contract to develop a prototype 
generator engine with reduced CO in the exhaust and entered into an 
interagency agreement (IAG) with the National Institute of Standards 
and Technology (NIST) to model the buildup and concentration of CO in 
various locations. NIST will also verify the efficacy of the prototype 
generator in reducing CO. In addition, staff conducted a proof-of-
concept demonstration of a remote CO sensing automatic shutoff device 
for a portable generator, as well as an interlock concept in which a CO 
sensor was located on the generator.
    Agency: Consumer Product Safety Commission (CPSC)
    Priority: Substantive, Nonsignificant
    RIN Status: Previously published in the Unified Agenda
    Agenda Stage of Rulemaking: Long-Term Actions
    Major: Undetermined
    Unfunded Mandates: Undetermined
    CFR Citation: Not Yet Determined (To search for a specific CFR, 
visit the Code of Federal Regulations.)
    Legal Authority: 15 USC 2051, Consumer Product Safety Act
    Legal Deadline: None

                                TIMETABLE
------------------------------------------------------------------------
              Action                       Date             FR Cite
------------------------------------------------------------------------
Staff Sends ANPRM to Commission...  06/29/2006.......  .................
Staff Sends Supplemental Material   10/12/2006.......  .................
 to Commission.
Commission Decision...............  10/26/2006.......  .................
Staff Briefs Commission...........  10/26/2006.......  .................
Staff Sends Draft ANPRM to          11/21/2006.......  .................
 Commission.
ANPRM Published...................  12/12/2006.......  71 FR 74472
Comment Period Ends...............  02/12/2007.......  .................
Staff Sends NPRM Briefing Package   ( \1\ )..........  .................
 to Commission.
------------------------------------------------------------------------
\1\ To Be Determined.

    Regulatory Flexibility Analysis Required: Undetermined
    Government Levels Affected: Undetermined
    Federalism: Undetermined
    Included in the Regulatory Plan: No
    RIN Data Printed in the FR: No
    Agency Contact: Janet L. Buyer, Project Manager, Consumer Product 
Safety Commission, Directorate for Engineering Sciences, 4330 East-West 
Highway, Bethesda, MD 20814. Phone: 301 504-0508. Email: 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="036961767a667143607370602d646c752d">[email&#160;protected]</a>
                               view rule
    CPSC     RIN: 3041-AC40 Publication ID: Spring 2008
    Title: Civil Penalty Factors
    Abstract: Section 20(b) and (c) of the Consumer Product Safety Act, 
15 USC 2069(b) and (c), require certain factors to be considered in 
assessing and compromising civil penalties. The Commission proposed a 
new interpretive rule that identifies and explains related factors that 
may be considered by the Commission and staff in evaluating the 
appropriateness and amount of a civil penalty. On July 12, 2006, the 
Commission solicited comments on a proposed new interpretive rule. The 
comment period closed on August 11, 2006. CPSC staff will prepare a 
briefing package for Commission consideration concerning the content of 
a possible final interpretive rule.
    Agency: Consumer Product Safety Commission (CPSC)
    Priority: Substantive, Nonsignificant
    RIN Status: Previously published in the Unified Agenda
    Agenda Stage of Rulemaking: Long-Term Actions
    Major: Undetermined
    Unfunded Mandates: No
    CFR Citation: 16 CFR 1119 (To search for a specific CFR, visit the 
Code of Federal Regulations.)
    Legal Authority: 15 USC 2069(b) and (c), Consumer Product Safety 
Act
    Legal Deadline: None

                                TIMETABLE
------------------------------------------------------------------------
              Action                       Date             FR Cite
------------------------------------------------------------------------
Notice of Proposed Interpretive     07/12/2006.......  71 FR 39248
 Rule.
Comment Period End................  08/12/2006.......  .................
Staff Sends Briefing Package to     ( \1\ )..........  .................
 Commission.
------------------------------------------------------------------------
\1\ To Be Determined.

    Regulatory Flexibility Analysis Required: Undetermined
    Government Levels Affected: Undetermined
    Federalism: Undetermined
    Included in the Regulatory Plan: No
    RIN Data Printed in the FR: No
    Agency Contact:, John Gibson Mullan,, Assistant Executive Director, 
Compliance and Field Operations, Consumer Product Safety Commission, 
4330 East-West Highway, Bethesda, MD 20814. Phone: 301 504-7626. Email: 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="fc96918990909d92bc9f8c8f9fd29b938ad2">[email&#160;protected]</a>
                               view rule
    CPSC     RIN: 3041-AC41 Publication ID: Spring 2008
    Title: Regulatory Options for Lead Toy Jewelry
    Abstract: On December 11, 2006, the Commission voted 2-0 to grant a 
petition requesting a ban on toy jewelry containing more than 0.06 
percent lead by weight. On December 27, 2006, the Commission approved 
an advance notice of proposed rulemaking (ANPRM), which was published 
in the Federal Register on January 9, 2007. The public comment period 
ended March 12, 2007. CPSC staff is reviewing public comments and will 
prepare a briefing package for Commission consideration as to whether 
to continue with rulemaking.
    Agency: Consumer Product Safety Commission (CPSC)
    Priority: Substantive, Nonsignificant
    RIN Status: Previously published in the Unified Agenda
    Agenda Stage of Rulemaking: Long-Term Actions
    Major: Undetermined
    Unfunded Mandates: No
    CFR Citation: Not Yet Determined (To search for a specific CFR, 
visit the Code of Federal Regulations.)
    Legal Authority: 5 USC 553, Administrative Procedure Act; 15 USC 
1261, Federal Hazardous Substances Act
    Legal Deadline: None

                                TIMETABLE
------------------------------------------------------------------------
              Action                       Date             FR Cite
------------------------------------------------------------------------
Commission Decision on Draft ANPRM  12/27/2006.......  .................
 FR Notice.
ANPRM Published...................  01/09/2007.......  72 FR 920
Comment Period Ends...............  03/12/2007.......  .................
Staff Sends Briefing Package to     ( \1\ )..........  .................
 Commission.
------------------------------------------------------------------------
\1\ To Be Determined.

    Regulatory Flexibility Analysis Required: Undetermined
    Government Levels Affected: None
    Federalism: Undetermined
    Included in the Regulatory Plan: No
    RIN Data Printed in the FR: No
    Agency Contact:, Kristina Hatlelid, Ph.D., Project Manager, 
Consumer Product Safety Commission, Directorate for Health Sciences, 
4330 East-West Highway, Bethesda, MD 20814-4408. Phone: 301 504-7254. 
Email: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2a41424b5e464f46434e6a495a5949044d455c04">[email&#160;protected]</a>
                               view rule
    CPSC     RIN: 3041-AB68 Publication ID: Spring 2008
    Title: Amendment of the Standard for the Flammability of Clothing 
Textiles
    Abstract: The Standard for the Flammability of Clothing Textiles 
prohibits the manufacture, importation, or sale of clothing and fabrics 
and related materials intended for use in clothing, which are 
dangerously flammable because of rapid and intense burning. The 
standard prescribes the apparatus, procedure, and criteria to be used 
for testing to determine compliance with that standard. The standard 
was made mandatory by the Flammable Fabrics Act of 1953 (Pub. L. 83-88, 
67 Stat. 111; June 30, 1953). Some of the equipment and procedures 
specified by the standard, particularly those for laundering and 
cleaning of test specimens, have become obsolete, unavailable, or 
unrepresentative of current practices. The staff prepared a briefing 
package describing modifications of the standard that may be needed to 
assure that the test in the standard is conducted with equipment and 
procedures representative of conditions to which garments currently are 
exposed. After consideration of the briefing package, the Commission 
decided to begin a proceeding for amendment of the standard. An advance 
notice of proposed rulemaking (ANPRM) was published in the Federal 
Register on September 12, 2002. The staff reviewed public comments and 
proposed amendments for Commission consideration. On January 12, 2007, 
the Commission voted to publish a notice of proposed rulemaking (NPRM) 
in the Federal Register. The comment period closed on May 14, 2007. The 
staff evaluated the comments and prepared a final rule briefing package 
for Commission consideration. On February 1, 2008, the Commission voted 
to approve the final rule amending the standard for the Flammability of 
Clothing Textiles.
    Agency: Consumer Product Safety Commission (CPSC)
    Priority: Substantive, Nonsignificant
    RIN Status: Previously published in the Unified Agenda
    Agenda Stage of Rulemaking: Completed Actions
    Major: No
    Unfunded Mandates: No
    CFR Citation: 16 CFR 1610 (To search for a specific CFR, visit the 
Code of Federal Regulations.)
    Legal Authority: 15 USC 1191, Flammable Fabrics Act
    Legal Deadline: None

                                TIMETABLE
------------------------------------------------------------------------
              Action                       Date             FR Cite
------------------------------------------------------------------------
Staff Sent Briefing Package to      06/11/2002.......  .................
 Commission.
Commission Decision...............  08/28/2002.......  .................
ANPRM.............................  09/12/2002.......  67 FR 57770
ANPRM Comment Period End..........  11/12/2002.......  .................
Staff Sends Briefing Package to     11/30/2006.......  .................
 Commission.
Commission Decision...............  12/08/2006.......  .................
Draft NPRM to Commission..........  01/10/2007.......  .................
Commission Decision on Draft NPRM.  01/12/2007.......  .................
NPRM..............................  02/27/2007.......  72 FR 8843
NPRM Comment Period End...........  05/14/2007.......  .................
Staff Sends Briefing Package to     12/27/2007.......  .................
 Commission.
Staff Sends Draft FR Notice with    01/22/2008.......  .................
 Draft Final Rule to Commission.
Commission Decision...............  02/01/2008.......  .................
Final Action......................  03/25/2008.......  73 FR 15636
------------------------------------------------------------------------

    Regulatory Flexibility Analysis Required: No
    Government Levels Affected: None
    Federalism: No
    Included in the Regulatory Plan: No
    RIN Data Printed in the FR: No
    Agency Contact:, Patricia K. Adair, Project Manager, Consumer 
Product Safety Commission, Directorate for Engineering Sciences, 4330 
East-West Highway, Bethesda, MD 20814-4408. Phone: 301 504-7536. Email: 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d9a9b8bdb8b0ab99baa9aabaf7beb6aff7">[email&#160;protected]</a>
       why does it take so long for cpsc to publish a final rule?
    Question. For seven regulations that CPSC has worked on for the 
past 4 years--some of which date back to the 1990s--the average length 
of time from initiation of a regulation to a final rule has been almost 
6 years, which is a long time to wait when the public has the potential 
of being injured or killed by a product. Your own statute states that, 
with certain exceptions, a rule shall be issued within one year of 
publication of an advance notice of proposed rulemaking.
    How can the length of time between initiation of a rule and 
finalization of it be accelerated?
    Answer. Under its statutes, to issue a final rule, the Commission 
must prepare thorough responses to substantive public comments (which 
can lead to the need to conduct complex research and testing) and 
develop a record to support its findings concerning ``unreasonable 
risk,'' costs and benefits, the basis for why the rule is the ``least 
burdensome alternative,'' and the inadequacy of any voluntary standards 
addressing the risk. The findings must be sufficiently robust to 
withstand judicial challenge, generally against a ``substantial 
evidence'' review standard.
    Additionally, in rulemakings under the Consumer Product Safety Act 
or the Federal Hazardous Substances Act that address chronic risks of 
cancer, birth defects or genetic mutations, the Commission is required 
to appoint a panel of scientific experts from a list of nominees 
provided by the National Academy of Sciences, allow the panel to 
deliberate, and receive the panel's expert opinion concerning the 
potential harm to human health that could result from exposure to the 
substance, before the rulemaking may commence with an Advance Notice of 
Proposed Rulemaking (ANPR). Also, of course, loss of quorum can 
materially impact rulemaking schedules.
    In addition to the requirements of the Commission's statutes noted 
above, there are numerous other federal government-wide statutory 
requirements and treaty obligations that impose constraints on the 
rulemaking process and the rate at which it can be accomplished, 
including the Regulatory Flexibility Act, the Paperwork Reduction Act, 
the Small Business Regulatory Enforcement Fairness Act, the National 
Environmental Policy Act, and public comment period duration 
requirements under the North American Free Trade Agreement, among 
others.
    All of these statutorily mandated complexities and checks and 
balances on the Commission's rulemaking authorities and procedures of 
necessity constrain the rate at which the deliberative process leading 
to a final rule can be accomplished.
    Last year, I submitted a proposal to Congress to make optional the 
statutory requirement to commence all standard or ban rulemakings with 
an ANPR, and I am hopeful that this reform will be included in CPSC's 
reauthorization when it is passed.
    A March 2008 report by Public Citizen criticized the CPSC for not 
completing work on the seven rules that are referred to in your 
question. The report is grossly misleading, and information on a few of 
the examples cited by the Public Citizen report follow:
    The upholstered furniture rulemaking activity has been 
exceptionally complex, with many diverse stake holders providing input 
into the process. Upholstered furniture components include such varied 
materials as cover fabrics, loose fillings, barriers, wood, plastic and 
resilient foams. Each reacts differently to open flame and smoldering 
ignitions. The components interact with each other during a fire 
depending on the materials involved and the construction and geometry 
of the product. In some cases, potential solutions that would mitigate 
open flame ignitions may not address, or could even reduce, the 
effectiveness of measures addressing smoldering ignitions and vice-
versa. Solving these complex fire science problems has been critical to 
developing an effective standard that complies with the agency's 
governing statutes. Nonetheless, the CPSC has proposed a new 
flammability standard for residential upholstered furniture and 
published it in the Federal Register on March 4, 2008, for public 
comment. Finalization of this very important rulemaking is one of my, 
and the Commission's, highest priorities.
    The rulemaking on bedclothes (e.g., quilts, blankets, bedspreads) 
flammability is closely related to the Commission's recently issued 
rule on open flame ignition of mattresses, a rule that when fully 
effective is estimated to prevent over 200 deaths each year. As we 
enforce the new rule that became effective on July 1, 2007, we gain 
important information that is relevant to bedclothes flammability. 
Before proceeding with the development of testing methodology and 
performance requirements related to bedclothes, CPSC staff will need to 
evaluate this critical data. It should also be noted that, like 
upholstered furniture, the fabrics and contents of bedclothes vary 
enormously in the market, and so development of a single flammability 
standard would be a very difficult and complex undertaking.
    The amendments to the Clothing Textile Standard are technical 
clarification and work was delayed so that CPSC's flammability experts 
could concentrate on the important mattress flammability standard 
(referred to above). This work is now complete and a final rule was 
published on March 25, 2008.
    After the CPSC initiated a rulemaking activity on baby bath seats, 
the voluntary standard was revised so that it was essentially the same 
as the mandatory requirements proposed by the CPSC. As noted above, the 
Commission is prohibited from issuing a mandatory rule if there is a 
voluntary standard in place that adequately addresses the hazard and 
there is likely to be substantial compliance with that standard. In 
that regard, staff is monitoring and evaluating the adequacy of the 
revised standard and will prepare a formal briefing package for 
Commission consideration as to whether to continue rulemaking. In the 
interim, CPSC staff participation in the development of revisions to 
the voluntary standard has been ongoing and significant.
                      illinois--lead in keychains
    Question. It has come to my attention that Illinois Attorney 
General Lisa Madigan has contacted you about the sale of some keychains 
in the State of Illinois that far exceeded lead standards through 
independent testing. One of these keychains resulted in the injury of a 
9-month old baby from Decatur, Illinois. Part of the Attorney General's 
letter raised concerns about CPSC's response to this report of 
independent testing.
    Will you provide me with your response to this injury report?
    Have you responded to the Attorney General's letter?
    Answer. The keychains were first brought to CPSC's attention by a 
professor of chemistry whose class conducted testing of these keychains 
along with a number of children's jewelry items. There are no standards 
for lead content of keychains, and at that time, CPSC staff focused on 
the jewelry items, which are subject to a specific enforcement policy, 
and obtained recalls as appropriate. Like the CPSC, the State of 
Illinois also considered the keychains a product for adults, but it 
became aware of lead exposure caused by one of the keychains given to 
an infant by its mother. As soon as CPSC staff learned of this 
exposure, a recall quickly ensued.
                                 ______
                                 
              Questions Submitted by Senator Sam Brownback
    Question. Since our toy safety hearing last September, what 
specific ways have Chinese manufacturing plants changed their 
operations to ensure toy safety?
    What specifically has the Chinese government done to ensure that 
toys and other consumer products manufactured for export are meeting 
safety standards?
    How would you characterize your agency's relationship with the 
Chinese government? Has China been willing to work with you?
    Answer. During the past year of CPSC outreach to Chinese 
manufacturers and Chinese government export inspectors, we have 
detected a shift of attitudes toward adoption of modern, end-to-end 
best practices to ensure compliance with safety standards. This shift 
can be seen in toy industry publications, in seminars for manufacturers 
hosted by the Chinese government, and in recall case reports to the 
CPSC from the Chinese regulator.
    The work plans that were agreed to at the U.S.-Sino Consumer 
Product Safety Summit held in September 2007 were outcomes of our 
Memorandum of Understanding (MOU), which established the framework for 
cooperation. The work plans called for cooperative work in four product 
categories: toys, lighters, electrical products, and fireworks. 
Technical experts are now working on exchanges of standards 
information, training for product testing, and sharing information and 
best practices in those four product categories.
    Since September, CPSC staff has met eight times, either in person 
or via video conference, with staff of China's General Administration 
for Quality Supervision, Inspection and Quarantine (AQSIQ) to review 
recalls and safety issues.
    The CPSC has begun a Chinese language service on our web site, 
where Chinese suppliers and government officials can get the latest 
information in Chinese (we are translating requirements and posting 
them) and descriptions in Chinese that link to the full texts of 
English language requirements.
    At CPSC's invitation, product safety officials from the European 
Union will join us in China during September for a joint outreach 
program to consumer product exporters. The Chinese government has 
enthusiastically endorsed this project and has agreed to facilitate 
access to the appropriate audiences for the compliance outreach 
seminars.
    Regarding Chinese compliance cooperation, first it should be 
stressed that the CPSC does not rely on the Chinese government to 
enforce U.S. requirements. The CPSC enforces our requirements with 
American importers. That said, the Peoples' Republic of China (PRC) 
offered to use its export quality control system to target Chinese-made 
products that would be recalled if they entered the United States. We 
singled out lead paint on toys as a problem and they agreed to take 
that on.
  --The Chinese government investigates recall causes at the factory 
        and mandates specific changes, such as a change of supplier or 
        more frequent testing. It reports those case-specific outcomes 
        to CPSC. The PRC says it has inspected thousands of factories 
        and revoked hundreds of export licenses for product safety 
        violations.
  --The PRC has sponsored numerous high-profile standards and 
        compliance seminars aimed at getting the product safety message 
        to Chinese manufacturers. The CPSC participated in one of these 
        in November.
    However, nothing the Chinese government promises and no amount of 
export control inspection can take the place of major systemic changes 
in Chinese manufacturing. We are working with Chinese suppliers to 
hasten that change, but it is the U.S. importer that must ensure that 
its product complies with our laws.
    Question. We cannot merely trust the Chinese. What specifically is 
your agency doing to verify that the Chinese are adhering to the MOU 
that we have entered into with them? Have the Chinese resisted your 
efforts to verify their agreements with us?
    Answer. CPSC officials are in China frequently meeting with Chinese 
industry representatives and government officials to witness their 
implementation of the policies and practices that we have been 
encouraging. During the past year, CPSC staff participated in training 
seminars in China for thousands of Chinese suppliers and we have 
visited several factories. We also work closely with State Department 
officials in China, who also visit factories and report on product 
safety issues. We have not experienced resistance to any of our 
requests for access or cooperation. Notably, when the CPSC requested an 
immediate visit to the factory producing the recalled toy ``Aqua 
Dots,'' we were provided access to the property (which was not 
sanitized for us) within 24 hours, as well as an opportunity to speak 
to the toy designer.
    Question. Have the number of consumer product recalls of imported 
items increased or decreased since September 2007?
    Have the number of consumer product recalls of imported items from 
China increased or decreased since September 2007?
    Answer. As a result of heightened industry awareness and aggressive 
enforcement activities by the CPSC, the number of consumer product 
recalls of imported items has increased since September 2007, relative 
to earlier years, and specifically, the number of consumer product 
recalls of imported items from China has increased since that time. It 
should be noted that the recalled products from China in this time 
frame were manufactured and exported to the United States before the 
U.S.-Sino Consumer Product Safety Summit in September 2007.
    Question. Frankly, I worry that the Chinese are unwilling or unable 
to implement productive changes in their manufacturing processes. How 
are we to be assured that safety standards will be met and that 
inspectors will monitor production facilities?
    Answer. Regarding Chinese cooperation, it must be stressed that the 
CPSC does not rely on the Chinese government to enforce U.S. 
requirements. The CPSC enforces our requirements with American 
companies that import consumer products. This is the essential purpose 
of CPSC's new Import Safety Initiative. We have already seen that 
recalls by the CPSC provide a significant economic incentive to promote 
change in China.
    As noted at the hearing, I would welcome funding for a CPSC 
Regional Product Safety Officer, supported by a Foreign Service 
National (FSN), to be stationed at the U.S. Embassy in Beijing to cover 
Asia and to help us coordinate with Chinese authorities--as a first 
step in a CPSC overseas presence. Since we are beginning to work with 
Vietnam and other countries in the region, there would be extended 
benefits to such a presence.
    Question. Ms. Nord, I would like to commend you for your new 
surveillance initiatives and your plan to hire employees to staff your 
new Import Surveillance Division. Do you think this increased presence 
is enough to stem the tide of defective imports flowing into the 
country? In your estimation what more should be done by the CPSC to 
help protect American consumers?
    Answer. The new CPSC presence at U.S. ports-of-entry is an 
important advance in our efforts to reduce the number of defective 
products entering the country. However, because of the sheer volume of 
consumer products imported into the nation annually, port inspection 
activity alone is not sufficient. That is the reason that the CPSC has 
implemented a multi-pronged approach to meet this challenge. In 
addition to increased dialogue and initiatives with China and other 
nations to encourage systemic change in their manufacturing processes, 
the CPSC is working with the private sector and reaching out to foreign 
manufacturers to establish product safety systems as an integral part 
of their manufacturing process. Additionally, I have requested a number 
of new enforcement tools, some of which are included in the CPSC Reform 
Act that is currently awaiting final action by a Senate/House 
conference committee. For example, I proposed that it be unlawful to 
fail to furnish a certificate of compliance with a mandatory standard 
under any statute administered by the CPSC or to issue a false 
certificate of compliance. As I mentioned at the hearing, this would be 
an extremely effective enforcement tool for the CPSC, and although this 
provision was not in the Senate-passed bill, I am hopeful that the 
final legislation will include it.
    Question. With the increased surveillance at the nation's high 
impact ports, do you expect there to be any ``port shopping'' of 
shipping vessels unloading at the docks with a lower federal presence? 
If so, how do you plan to tackle this problem?
    Answer. It is probably inevitable that some unscrupulous importers 
will try to find ways to bypass CPSC's fulltime presence at certain 
ports. It is important to recognize, however, that CPSC's field staff 
can visit any of the 300 U.S. ports-of-entry and sample products at 
those locations on an as-needed basis. In addition, the CPSC is now a 
participating agency in the International Trade Data System (ITDS) 
Automated Commercial Environment (ACE), which will give us much better 
information with which to target imports.
    Question. Commissioner Nord, Wichita and El Dorado happen to be 
hubs of the largest latex balloon manufacturing operation in America, 
and I'm very proud that we continue to have this kind of domestic 
manufacturing presence in Kansas and in the United States.
    I understand that the Balloon industry, Pioneer Balloon in 
particular, voluntarily put cautionary statements on their packaging as 
early as 1992. They also worked closely and cooperatively with the CPSC 
to develop standardized cautionary statements for all balloon packages 
that were implemented in 1994. These efforts have been effective, with 
fatal incidents associated with balloons dropping dramatically.
    As you may know, there is a provision in the CPSC reauthorization 
legislation that deals with extending the mandate for cautionary 
statements on a class of products, including balloons, from the labels 
of those products to advertising, including Internet and Catalog 
advertising, for these products. These efforts appear to be intended to 
ensure that consumers who would see the cautionary statement in a brick 
and mortar store would also be aware of the hazard if they were to buy 
balloons online.
    While the Balloon Industry wants to safeguard consumers as much as 
they can, they want to make sure they can continue to do business 
without a huge chilling effect on commerce or on their business-to-
business practices. To that end:
    By your understanding of the bill, would the provision affect 
business to business advertising, in catalogues or the Internet? 
Because balloons are generally sold from manufacturers to distributors 
and retailers, I want to be sure that this provision would not be 
misconstrued to affect business-to-business advertising or catalogs 
that balloon companies send to their distributors that never make it 
into the hands of consumers?
    Answer. As written, section 11 of S. 2663 does not make a 
distinction between business-to-business advertisements and business-
to-consumer advertisements. Rather, it requires an appropriate 
cautionary statement in any advertisement on the internet or in a 
catalogue or other distributed material ``that provides a direct means 
of purchase.'' The provision does not specify who is making the 
purchase.
    Question. While conferees still have work to do on a final bill, if 
the provision were to become law, would the CPSC work cooperatively 
with the Balloon Industry in a way that befits previous cooperation so 
that we can be sure that only consumers who buy online or from a 
catalog are affected, and that business to business practices can 
continue as they exist today?
    Answer. The CPSC works cooperatively with affected industries to 
assure that they understand their requirements under the law as it is 
written by Congress.
                                 ______
                                 
                 Questions Submitted to Thomas H. Moore
              Questions Submitted by Senator Sam Brownback
    Question. Numerous states have either passed or are considering 
passing their own product safety laws. In some cases, the states would 
be imposing standards, for lead content for example, which are 
considerably more restrictive than the contemplated federal standards. 
How does S. 2663 guard against states creating what would in effect 
become a patchwork of different material content standards across the 
country?
    Answer. It is unclear the extent to which either S. 2663 or the 
express preemption provisions of the Federal Hazardous Substances Act 
would sufficiently address this problem. Regardless of the language 
used in the final version of the federal statute, in all likelihood 
these issues will ultimately be resolved in the courts by resort to 
judicial principles concerning preemption.
    Question. While S. 2663 defines ``children's product'' to mean 
products designed or intended for use by consumers aged seven or 
younger, certain state statutes have a higher age threshold. How does 
S. 2663 avoid a situation in which products destined for very young 
children are subject to the federal standard while products intended 
for older children face more restrictive material content standards 
imposed by the states?
    Answer. S. 2663 contains no provision which would avoid such a 
situation.
    Question. How does S. 2663 guard against states passing their own 
children's product safety laws which encompass specific products, such 
as jewelry, or a broader array of materials than does the federal law, 
thus, effectively creating special restrictions for products or 
materials which Congress did not feel compelled to regulate?
    Answer. S.2663 contains no provision which would avoid such a 
situation.
    Question. In the State of Washington, a new product safety law will 
go into effect in July of 2009. Senate bill 2663 will probably not 
become effective until after that time; likely the end of 2009. Thus, 
retailers may face a situation in which they are forced to comply with 
a very restrictive state standard for several months before the new 
federal standards take effect. How can S. 2663 be modified to avoid 
this problem?
    Answer. This situation is essentially impossible to prevent in the 
absence of enactment of a federal law addressing the same scope of 
products and very clearly stating Congressional intent to preempt the 
Washington law prior to the effective date of the Washington law.

                          SUBCOMMITTEE RECESS

    Senator Durbin. The meeting of the subcommittee will stand 
recessed.
    [Whereupon, at 3:46 p.m., Wednesday, April 30, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
